<html>
<title> - REGIONAL NUCLEAR DYNAMICS</title>
<body><pre>[Senate Hearing 114-429]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-429

                       REGIONAL NUCLEAR DYNAMICS

=======================================================================

                                  HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/

                               __________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
22-491 PDF                     WASHINGTON : 2016                       
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  

  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                    JEFF SESSIONS, Alabama, Chairman

JAMES M. INHOFE, Oklahoma            JOE DONNELLY, Indiana
DEB FISCHER, Nebraska                BILL NELSON, Florida
MIKE LEE, Utah                       JOE MANCHIN III, West Virginia
LINDSEY GRAHAM, South Carolina       ANGUS S. KING, JR., Maine
TED CRUZ, Texas                      MARTIN HEINRICH, New Mexico

                                  (ii)

                            C O N T E N T S

                               __________

                           february 25, 2015

                                                                   Page

Regional Nuclear Dynamics........................................     1

Krepinevich, Andrew F., Jr., President, Center for Strategic and 
  Budgetary Assessments..........................................     2
Kroenig, Matthew, Associate Professor of Government and Foreign 
  Service, Field Chair of International Relations at Georgetown 
  University, and Senior Fellow at the Atlantic Council..........    21
Tellis, Ashley, Senior Associate, Carnegie Endowment for 
  International Peace............................................    27
Perkovich, George, Vice President for Studies, Carnegie Endowment 
  for International Peace........................................    38

                                 (iii)

 
                       REGIONAL NUCLEAR DYNAMICS

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m. in room 
SR-220, Russell Senate Office Building, Senator Jeff Sessions 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Fischer, 
Nelson, Donnelly, and King.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. Okay, the subcommittee would come to 
order, and I appreciate the good witnesses that we have. 
Senator Donnelly, thank you for your leadership and 
participation and dedication to helping us get this issue 
right.
    I think we are close to having a bipartisan policy on this, 
which is not always possible in this body, but we have been 
able to operate pretty well as a subcommittee for quite a 
number of years, since I have been in the Senate now 18 years. 
Hard to believe.
    Senator Donnelly. I have almost been here that long.
    Senator Sessions. It seems like it. So we had--our 
subcommittee on February 11th received a classified briefing on 
worldwide nuclear capabilities and threats, which revealed the 
scope and extent to which other nuclear powers are modernizing 
their weapon nuclear capabilities and increasing, it appears, 
reliance on nuclear weapons for their security.
    Today's open hearing is meant to explore the implications 
of this global nuclear renaissance, renewal around the world, 
for U.S. nuclear strategy forces and declaratory policy. While 
the size and composition of the U.S. nuclear arsenal is driven 
primarily by the nuclear and conventional might of Russia and 
agreements with Russia, the expansion of nuclear arsenals 
across the globe, coupled with a growing regional tension, 
suggests that there are other factors that should inform U.S. 
nuclear policy and strategy.
    We divided the world between four prominent think tank 
scholars. You each have the world in your hands. Dr. Andrew 
Krepinevich will look at the Middle East. Dr. Matthew Kroenig 
will focus on NATO [North Atlantic Treaty Organization]/Europe, 
while Dr. George Perkovich and Dr. Ashley Tellis will tackle 
Asia. They have been asked in general--we have asked you in 
general to look out about 10 years. Where are we, and where 
should we go?
    A summary--and think about the following--a summary of the 
nuclear capabilities and doctrine of the nuclear and potential 
nuclear powers in their region, to include the rationale for 
acquiring nuclear weapons, the likelihood for a nuclear 
escalation, and implications for nuclear proliferation, which 
is a real--is reality, I am afraid.
    Why is it important for the United States to manage nuclear 
stability in the regions, how difficult such a task might be? 
What might be the role of the United States during a regional 
crisis or conflict that could escalate to nuclear use? Finally, 
any recommendations for U.S. national security policy, nuclear 
force policy, and nuclear doctrine derived from your analysis.
    On the President's budget request, I think it is fair to 
say affirms a policy of modernization. We will be looking to 
make sure that we are sufficiently funded for that. We are 
behind, some would suggest, at about $2.5 billion from what we 
agreed to when we started this bipartisan effort several years 
ago.
    So this will be the order, as I understand it--Dr. 
Krepinevich, Dr. Kroenig, Dr. Tellis, and Dr. Perkovich. In 
that order we would go. All right.
    Do you have any comments?

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
Chairman Donnelly and Senator Sessions for holding this 
hearing, which is to set the policy context for many of the 
issues that we face in the subcommittee this Congress. It 
follows on the footsteps of a highly successful hearing we had 
last year on how we deal with nuclear proliferation outside the 
United States-Russia context.
    Let me also thank all of you for taking the time to testify 
here today. We very much appreciate your ideas, your thoughts, 
and your recommendations.
    I want to concentrate first on the India-Pakistan nuclear 
question. This region seems to be an area where nuclear weapons 
are growing, with great potential for possible instability from 
a conventional conflict or from terrorism.
    I also want to find out what these countries and their 
nuclear programs mean for the United States. We now know that 
India and China are developing ballistic submarines. What does 
this mean for the region and for the United States?
    Finally, how can countries surrounding North Korea react to 
their nuclear program, and how can we help them?
    Again, thank you for coming today. I look forward to the 
dialogue. Mr. Chairman, off we go.
    Senator Sessions. Dr. Krepinevich?

STATEMENT OF ANDREW F. KREPINEVICH, JR., PRESIDENT, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman, Senator Donnelly, 
for the opportunity to be here today and offer my views on 
these important issues. I will try and summarize my remarks in 
the form of four brief points.
    First, of course, looking at the Middle East, which is my 
area. Right now, there is only one undeclared nuclear power in 
the region. However, obviously, there is the issue of Iran. 
While the negotiations to forestall Iran from becoming a 
nuclear power are in progress, from what is being reported in 
the press it seems likely that should an agreement along these 
lines be made, Iran will likely be a threshold nuclear power in 
10 years. This perhaps is not surprising.
    Given the current state of Iran's nuclear program, the 
immense cost Iran's leaders have invested in it, the great 
lengths to which they have gone to deceive the international 
community regarding their nuclear program, and the substantial 
advantages that would accrue to Teheran from possessing nuclear 
weapons, it seems unlikely that anything short of the threat or 
the use of force would deflect the current regime from its 
objective of achieving a nuclear weapons capability.
    Second, while we can and should certainly hope for a 
positive breakthrough in the current negotiations, hope is not 
a strategy. Prudence dictates that we contemplate what 
challenges we might confront should these negotiations fail to 
arrest Iran's progress toward the bomb.
    Should Iran acquire a nuclear capability, which is 
certainly plausible within the 5- to 10-year timeframe that you 
have asked us to examine, the initial bipolar nuclear 
competition between Iran and Israel, I would think, would be 
far less stable than the bipolar nuclear competition that 
existed between the United States and the Soviet Union during 
the Cold War for several reasons.
    First, given the state of relations between Israel and 
Iran, there seems relatively little chance that the two sides 
will engage in mutual confidence-building measures, things such 
as hotlines or arms control or intrusive inspection regimes.
    Second, the geography of the two countries means that 
missile flight times between the two would be far less than 
even 10 minutes, whereas during the Cold War we had arguably 20 
to 30 minutes warning time of an attack by the Soviet Union.
    Third, particularly with respect to Iran, early warning 
systems and command and control structures are likely to be 
limited at best, which may lead one or both sides to place 
their forces on hair-trigger alert or to extend nuclear weapons 
release authority down the chain of command, increasing the 
risk of unauthorized or accidental launch of a nuclear attack.
    Fourth, the potential--with the rise of cyber warfare, the 
potential to covertly insert cyber weapons into command and 
control or early warning systems may further reduce the 
confidence either the Israelis or especially the Iranians might 
have in their ability to detect an attack. Again, all this may 
push both sides, particularly in a crisis, to a very hair-
trigger kind of nuclear force posture, if you will, one that 
would certainly compromise efforts to reduce the risk of a 
nuclear use.
    My third point is that a nuclear-armed Iran, or even an 
Iran that is a nuclear threshold state, could trigger a 
proliferation cascade in the region. If there is an Israeli 
bomb and a Persian Shia bomb, one could surmise that for their 
security, Arab states and perhaps the Turks as well would seek 
a nuclear capability.
    Certainly in the open press, there are reports that, given 
the relationship that the Saudis have with the Pakistanis, 
Pakistan could, for example, deploy nuclear weapons on Saudi 
soil, somewhat similar to the way that we have nuclear weapons 
on Turkey's soil right now. Only the difference could be that 
the Saudis would have de facto control over those weapons. Or 
you could find an unraveling of the NPT regime, where the 
transfer of nuclear-related technology, the barriers to those 
transfers could become a lot lower.
    In particular, even transfers of technology that do not 
relate directly to nuclear weapons themselves--such as the 
ability to miniaturize a nuclear warhead to fit on a ballistic 
missile, or the ability to develop cruise missiles and place 
them offshore, say, offshore of Israel or to provide even less 
warning time than Israel would have today, or of course 
precision guidance that would enhance the effectiveness of 
these weapons--could further destabilize an already unstable 
situation.
    Fourth, should--I am sorry--should other states in the 
region besides Iran and Israel acquire nuclear weapons, of 
course, warning times could be reduced even further. Consider 
the example of Saudi Arabia and Iran. The two countries are 
very, very close together, obviously, and it seems difficult to 
imagine that you could have an effective early warning and 
command and control system to respond effectively to an attack.
    So attack attribution may be difficult as well. In the 
sense that if early warning systems and command and control 
systems are limited, and there are four or five actors in the 
region and you are attacked, under certain circumstances it may 
be very difficult in the wake of an attack to accurately 
determine exactly who the perpetrator was.
    My fourth point is that these could have significant 
effects on the U.S. military posture. One effect, certainly, 
would be an Iran that can operate behind a nuclear shield may 
be an even more aggressive sponsor of terrorism proxy war than 
it is today not only within the region, but perhaps beyond the 
region as well. Should we decide to pursue a strategy of 
extended deterrence, we may run into difficulties as well.
    As you have pointed out, other states are modernizing their 
nuclear forces. China and Russia modernizing their forces as 
well, moving particularly the Russians toward smaller-yield 
weapons, weapons with focused effects. This provides them with 
more options in terms of how they might respond in a nuclear 
crisis. Right now, we are denying our President the ability to 
have that kind of flexibility in responding to a crisis.
    Second, as one senior Arab statesman pointed out to me when 
we were discussing the issue of extended deterrence, ``You 
Americans talk about extended deterrence. You extend deterrence 
to protect your allies against the Russians, the Chinese, the 
North Koreans, and now prospectively the Iranians. But you keep 
reducing your nuclear arsenal. So at the same time you are 
increasing your commitments, you are reducing your 
capabilities, and we find that a bit disturbing.''
    My final point is that Thomas Schelling once remarked that 
he felt it took U.S. strategists well over a decade following 
the introduction of nuclear weapons to arrive at a reasonably 
good understanding of the character of the United States-Soviet 
nuclear competition. This was achieved only after long and 
dedicated effort by talented strategists such as Bernard 
Brodie, Herman Kahn, Henry Kissinger, Andrew Marshall, and 
Albert and Roberta Wohlstetter, to name but a few.
    While considerable effort by many talented analysts has 
been devoted to assessing how we might preclude Iran from 
acquiring nuclear weapons, given current trends, it seems 
prudent to hedge our bets and work to obtain as best we can a 
sense of what it means for our security to live in a world in 
which these efforts fail to prove out.
    This completes my summary, Mr. Chairman. Thank you.
    [The prepared statement of Dr. Krepinevich follows:]      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]           
    
    Senator Sessions. Thank you.
    Dr. Kroenig?

STATEMENT OF MATTHEW KROENIG, ASSOCIATE PROFESSOR OF GOVERNMENT 
AND FOREIGN SERVICE, FIELD CHAIR OF INTERNATIONAL RELATIONS AT 
   GEORGETOWN UNIVERSITY, AND SENIOR FELLOW AT THE ATLANTIC 
                            COUNCIL

    Dr. Kroenig. Chairman Sessions, Ranking Member Donnelly, 
members of the committee, thank you for inviting me to 
participate in this important hearing. I am pleased to be here 
alongside my distinguished colleagues Andrew Krepinevich, 
George Perkovich, and Ashley Tellis. I would like to commend 
the committee for initiating this timely discussion of regional 
nuclear dynamics.
    I have worked closely on nuclear issues both in and out of 
government for over a decade, and my recent work at Georgetown 
University and the Atlantic Council has focused increasingly on 
Russian nuclear capabilities and its implications for the 
United States and NATO. It is this subject on which I have been 
invited to speak today. In my opening remarks, I will make 
several brief points. More detail on each can be found in my 
written testimony.
    First, I will begin with Russia's nuclear capabilities. 
Along with the United States, Russia is one of the world's 
foremost nuclear powers. At the strategic level, it possesses a 
triad of nuclear bombers, intercontinental ballistic missiles, 
and submarines.
    In addition to its strategic forces, Russia retains an 
arsenal of around 2,000 tactical nuclear weapons for 
battlefield use. This includes nuclear-armed torpedoes, depth 
charges, short-range missiles, air-to-surface missiles and 
bombs, and surface-to-air missiles for use in air defense.
    Russia has made the thoroughgoing modernization of its 
nuclear forces and the development of new nuclear capabilities 
a national priority, even in difficult economic circumstances. 
Among the new capabilities is Russia's recent test of an 
intermediate-range ground launch cruise missile. This 
development is of particular concern because it is in violation 
of Russia's commitments under the 1987 Intermediate-Range 
Nuclear Forces, or INF, Treaty, the only arms control treaty 
ever to eliminate an entire class of nuclear weapons.
    Second, turning to Russian doctrine, it is important to 
emphasize that, unlike the United States, since the end of the 
Cold War, Russia has moved nuclear weapons toward the center of 
its national security strategy. Beginning in the early 2000s, 
Russian strategists have promoted the idea of ``de-escalatory'' 
nuclear strikes.
    According to this ``escalate to de-escalate'' concept, 
Moscow will threaten or, if necessary, carry out limited 
nuclear strikes early in a conventional conflict in order to 
force an opponent to sue for peace on terms favorable to 
Moscow. In addition, at least as telling as public documents 
are how military forces actually plan and exercise, and nearly 
all of Russia's major military drills over the past decade have 
concluded with simulated nuclear strikes.
    In some ways, it is not surprising that Russia, as the 
conventionally inferior power, would consider the use of 
nuclear weapons early in a conventional war, as this is 
essentially the reverse of NATO strategy during the Cold War, 
when it faced a conventionally superior Soviet Union. 
Nevertheless, Russia's nuclear capabilities and strategy pose a 
serious threat to the United States and our allies, which 
brings me to my third point, the possibility of escalation.
    The ongoing conflict in Ukraine is very much a nuclear 
crisis. Throughout the crisis, President Putin and other high-
ranking officials have repeatedly issued thinly veiled nuclear 
threats. Moreover, these threats have been backed up by an 
explicit brandishing of Russian nuclear forces at a level we 
have not seen since the end of the Cold War. The message is 
clear. The West must not interfere lest things escalate to 
catastrophic levels.
    If the conflict in Ukraine were to escalate or President 
Putin were to rerun his playbook of hybrid warfare from Ukraine 
against a NATO member, the United States could find itself in a 
direct military confrontation with Russia. In the event of such 
a conflict, Russia will likely issue nuclear threats in a bid 
to force NATO capitulation, and if on the losing end of a 
conventional conflict, Moscow may conduct a limited nuclear 
strike in an effort to de-escalate the conflict. To be sure, 
these scenarios may not be likely, but nuclear deterrence is, 
by definition, about unlikely, but possible and terribly 
dangerous contingencies.
    This brings me to my final point, recommendations for U.S. 
nuclear strategy and posture. So long as nuclear weapons retain 
such a prominent place in Russian strategy, the United States 
and NATO must retain a policy of, and a serious capability for, 
nuclear deterrence. At a minimum, U.S. nuclear doctrine needs 
to be clear and firm that any use of nuclear weapons against 
the United States or an ally would result in a nuclear 
counterstrike.
    In addition, the United States should leave on the table 
the possibility of a nuclear response to a strictly 
conventional Russian assault against a NATO ally. The reason 
for eschewing a no first-use policy is not that an early 
nuclear response would be necessary or automatic, but rather 
because there is no reason to assure Russia that this would not 
happen.
    Moreover, the possibility of nuclear response to non-
nuclear attack has a critical assurance element, as NATO's 
easternmost neighbors would prefer that any Russian attack be 
deterred by the threat of nuclear response, rather than needing 
to wait for a costly and lengthy conventional war of 
liberation. To make these threats credible, the United States 
and NATO must maintain a sufficiently large, flexible, and 
resilient nuclear force, including capable nuclear delivery 
systems and a supporting infrastructure. I, therefore, urge 
this body to fully fund the much-needed modernization of this 
country's nuclear forces and infrastructure as planned.
    In addition, the United States should upgrade its homeland 
and theater missile defense systems. While missile defenses 
could not meaningfully blunt a large-scale Russian nuclear 
attack, an upgraded system could better provide a defense 
against, and thus complicate Russian calculations for, a more 
limited strike on the United States or its allies.
    The United States must also make sure that it has a 
credible response to any Russian battlefield use of nuclear 
weapons, and it is not at all clear that it does at present. 
Yields of strategic warheads may be too large for a credible 
response to a tactical strike, and their use would risk 
escalation to a catastrophic strategic nuclear exchange. The 
B61 gravity bombs in Europe are out of range of potential 
conflict zones in the East without redeployment and/or 
refueling, and the aircraft in which they are delivered would 
be highly vulnerable to Russian air defenses.
    American B-52 bombers and nuclear-armed air launch cruise 
missiles are based in the United States, reducing their utility 
for deterrence and assurance missions in Europe.
    The United States should, therefore, consider additional 
options to deter Russian nuclear aggression, assure regional 
allies, and if necessary respond to a limited Russian nuclear 
strike. The options could include--I will just list them 
quickly--placing lower-yield warheads on strategic missiles, 
training European crews to participate in NATO nuclear strike 
missions, forward basing B61 gravity bombs in Eastern Europe, 
rotationally basing B-52 bombers and nuclear air-launched 
cruise missiles in Europe, developing a sea-launched cruise 
missile, or designating the planned long-range standoff weapon, 
LRSO, for delivery by both air and sea.
    The United States must also convince Russia to return to 
compliance with the INF [Intermediate-Range Nuclear Forces] 
Treaty and, if that fails, to prevent Russia from gaining a 
military advantage from its violation. Washington should, 
therefore, study the development of new intermediate-range 
missiles and their deployment to Europe. It should also 
consider the deployment of cruise missile defenses in Europe to 
defend against Russian nuclear aggression.
    Following through on some of these proposals would reverse 
U.S. and NATO policy of reducing reliance on nuclear weapons as 
an objective in and of itself. This policy was justifiable so 
long as Russia remained cooperative, but given increased 
Russian nuclear aggression, we no longer have the luxury of 
reducing reliance on nuclear weapons for its own sake and 
arguably never did.
    Some of these proposals, if adopted, would also run counter 
to promises made to Russia in the NATO-Russia Founding Act of 
1997. But Putin has already violated key provisions of this 
act, and it would be foolish for the United States to be 
constrained from taking action necessary for its national 
security by a document that Russia routinely ignores.
    Nuclear weapons are tools of great power, political 
competition, and they remain the ultimate instrument of 
military force. With long-dormant tensions among the great 
powers resurfacing, nuclear weapons will again feature 
prominently in these confrontations, and the United States must 
be prepared to protect itself and its allies in these 
conditions.
    I know this committee will help ensure the maintenance of 
the strong American nuclear forces that have undergirded 
international peace and security for nearly 70 years.
    Thank you for the opportunity to be here today. I look 
forward to your questions.
    [The prepared statement of Mr. Kroenig follows:]

               Prepared statement by Dr. Matthew Kroenig
    Chairman Sessions, Ranking Member Donnelly, members of the 
committee, thank you for inviting me to participate in this important 
hearing. I am pleased to be here alongside my distinguished colleagues 
Andrew Krepinevich, George Perkovich, and Ashley Tellis.
    I would like to commend the committee for initiating this timely 
discussion of regional nuclear dynamics. I have worked on nuclear 
issues both in and out of government for over a decade and, as a 
professor at Georgetown University and a senior fellow at the Atlantic 
Council, I have focused increasingly on Russian nuclear capabilities 
and strategy and its implications for the United States and NATO. \1\ 
It is this subject on which I have been invited to speak today.
---------------------------------------------------------------------------
    \1\ For my recent work in this area, see Matthew Kroenig and Walter 
Slocombe, ``Why Nuclear Deterrence Still Matters to NATO,'' The 
Atlantic Council (August 2014), available at http://
www.atlanticcouncil.org/images/publications/Why--Nuclear--Deterrence--
Still--Matters--to--NATO.pdf and Matthew Kroenig, ``Facing Reality: 
Getting NATO Ready for a New Cold War,'' Survival: Global Politics and 
Strategy (February/March 2015), pp. 49-70.
---------------------------------------------------------------------------
    I will begin with Russia's nuclear capabilities. Along with the 
United States, Russia is one of the world's foremost nuclear powers. At 
the strategic level, it possesses a triad of nuclear bombers, 
intercontinental ballistic missiles (ICBMs), and submarines. \2\ Under 
the New START Treaty, signed in 2010, Russia has committed to deploying 
no more than 1,550 strategic nuclear warheads by 2018. \3\
---------------------------------------------------------------------------
    \2\ For more detail on Russia's nuclear forces, see Hans M. 
Kristensen and Robert S. Norris, ``Russian Nuclear Forces, 2014,'' 
Bulletin of the Atomic Scientists, Vol. 70, No. 2 (2014), pp. 75-85.
    \3\ New Strategic Arms Reduction Treaty (New START), April 8, 2010, 
available at http://www.state.gov/t/avc/newstart/c44126.htm.
---------------------------------------------------------------------------
    Russia has made the thoroughgoing modernization of its nuclear 
forces and the development of new nuclear capabilities a national 
priority even under difficult economic circumstances. \4\ Russia is 
updating its bomber fleet, which will carry a new precision-strike, 
long-range, nuclear-armed cruise missile. A new generation of nuclear 
submarines is set to enter service and they are designed to deliver a 
new, more advanced submarine-launched ballistic missile (SLBM), 
intended to penetrate enemy missile defenses. Moscow is also developing 
new silo-based and road-mobile ICBMs capable of carrying warheads with 
multiple independently-targetable reentry vehicles (MIRVs), also 
designed to defeat enemy defenses.
---------------------------------------------------------------------------
    \4\ On Russian nuclear modernization, see also Kristensen and 
Norris, 2014.
---------------------------------------------------------------------------
    In addition, Russia has tested a new intermediate-range, ground-
launched cruise missile (GLCM). \5\ This development is of particular 
concern because it is in violation of Russia's commitments under the 
1987 Intermediate Range Nuclear Forces (INF) Treaty, the only arms 
control treaty ever to eliminate an entire class of nuclear weapons. 
\6\ In addition, Russia's RS-26 ballistic missile, although tested at 
longer ranges, can be operated at intermediate range, providing a 
technical circumvention of the INF Treaty.
---------------------------------------------------------------------------
    \5\ Michael R. Gordon, ``U.S. Says Russia Tested Cruise Missile, 
Violating Treaty,'' The New York Times, July 28, 2014.
    \6\ Treaty Between The United States Of America And The Union Of 
Soviet Socialist Republics On The Elimination Of Their Intermediate-
Range And Shorter-Range Missiles (INF Treaty), December 8, 1987, 
available at http://www.state.gov/t/avc/trty/102360.htm.
---------------------------------------------------------------------------
    In addition to its strategic forces, Russia retains an arsenal of 
around 2,000 tactical nuclear weapons for battlefield use. \7\ This 
arsenal includes nuclear-armed: torpedoes, depth charges, short-range 
surface-to-surface missiles, air-to-surface missiles and bombs, and 
surface-to-air missiles for use in air defense. Although Russia has not 
publicized plans to modernize its tactical nuclear forces, it is 
possible that Russia is also upgrading some of these systems as it 
modernizes its strategic forces.
---------------------------------------------------------------------------
    \7\ Krisetenen and Norris, 2014.
---------------------------------------------------------------------------
    Turning next to Russian strategy and doctrine, it is important to 
emphasize that, unlike the United States, since the end of the Cold 
War, Russia has moved nuclear weapons toward the center of its national 
security strategy and military doctrine. In the past, Moscow maintained 
a nuclear ``no first use'' doctrine, but this policy was abandoned in 
the year 2000. Since the early 2000s, Russian strategists have promoted 
the idea of ``de-escalatory'' nuclear strikes. \8\ According to this 
``escalate to de-escalate'' concept, Moscow will threaten, or, if 
necessary, carry out, limited nuclear strikes early in a conventional 
conflict in order to force an opponent to sue for peace on terms 
favorable to Moscow. \9\ Russia's 2000 military doctrine stated that 
nuclear strikes might be conducted in any situation ``critical to the 
national security'' of the Russian Federation. \10\ The more expansive 
language about nuclear preemption was excluded from Russia's most 
recent public documents, but the idea remains firmly engrained in 
Russian thinking and some speculate that the language remains in 
classified annexes. \11\
---------------------------------------------------------------------------
    \8\ Nikolai N. Sokov, ``Why Russia Calls a Limited Nuclear Strike 
`de-escalation,' '' Bulletin of the Atomic Scientists, March 13, 2014, 
available at http://thebulletin.org/why-russia-calls-limited-nuclear-
strike-de-escalation.
    \9\ Ibid.
    \10\ Military Doctrine of the Russian Federation, 2000, available 
at http://igcc.ucsd.edu/assets/001/502378.pdf.
    \11\ Elbridge Colby, ``Nuclear Weapons in the Third Offset 
Strategy: Avoiding a Blind Spot in the Pentagon's New Initiative,'' 
Center for a New American Security (February 2015), pp. 6, available at 
http://www.cnas.org/sites/default/files/publications-pdf/
Nuclear%20Weapons%20 in%20the%203rd%20Offset%20Strategy.pdf.
---------------------------------------------------------------------------
    At least as telling as public documents, however, are how military 
forces actually plan and exercise. Nearly all of Russia's major 
military drills over the past decade have concluded with simulated 
nuclear strikes. \12\ Moreover, President Putin himself has personally 
overseen such nuclear exercises. \13\
---------------------------------------------------------------------------
    \12\ Sokov, ``Why Russia Calls a Limited Nuclear Strike `De-
escalation.' ''
    \13\ Alexey Nikolsky, ``Putin Holds Military Drills to Repel 
Nuclear Strike,'' RT, May 8, 2014, available at http://rt.com/news/
157644-putin-drills-rocket-launch/.
---------------------------------------------------------------------------
    In some ways, it is not surprising that Russia, as the 
conventionally inferior power in relation to the United States and 
NATO, would consider the use of nuclear weapons early in a conventional 
war, as this is essentially the reverse of NATO strategy during the 
Cold War when it faced a conventionally superior Soviet Union. 
Nevertheless, Russia's nuclear capabilities and strategy pose a serious 
threat to the United States and should be a cause of concern.
    This brings me to my next major subject, the possibility of nuclear 
escalation. For years, Western analysts assumed that Russia's heavy 
reliance on nuclear weapons was envisaged in the context of a defensive 
war, but recent events have shown that these tactics can also be 
employed as part of an offensive campaign. The ongoing conflict in 
Ukraine is very much a nuclear crisis. \14\ Throughout the crisis, 
President Putin and other high-ranking officials have repeatedly issued 
thinly-veiled nuclear threats. Moreover, these threats are backed up by 
explicit brandishing of Russia's nuclear forces at a level we have not 
seen since the end of the Cold War. Russia has also reserved the right 
to deploy nuclear weapons in Crimea and Kaliningrad. \15\ The message 
is clear: the West must not interfere in Russia's invasion of Ukraine 
lest things escalate to catastrophic levels.
---------------------------------------------------------------------------
    \14\ For more on this point, see Kroenig, ``Facing Reality.''
    \15\ On Russia's claims about nuclear weapons in Crimea, see Sergei 
L. Loiko, ``Russia Says it Has a Right to Put Nuclear Weapons in 
Crimea,'' Los Angeles Times, September 15, 2014, available at http://
www.latimes.com/world/europe/la-fg-russia-nuclear-crimea-20141215-
story.html. On Russia's threats to deploy nuclear weapons in 
Kaliningrad, see Bruno Waterfield, ``Russia Threatens NATO with 
Military Strikes over Missile Defence System,'' The Telegraph, May 3, 
2012, available at http://www.telegraph.co.uk/news/worldnews/europe/
russia/9243954/Russia-threatens-Nato-with-military-strikes-over-
missile-defence-system.html.
---------------------------------------------------------------------------
    If the conflict in Ukraine were to escalate or President Putin were 
to rerun his playbook of hybrid warfare from Ukraine against a NATO 
member, the United States could find itself in direct military 
confrontation with Russia. In the event of such a conflict, Russia will 
likely issue nuclear threats in a bid to force NATO capitulation and, 
if on the losing end of a conventional conflict, Moscow may conduct a 
limited nuclear strike in an effort to ``de-escalate'' the conflict.
    I will conclude with a discussion of the implications of these 
developments for U.S. nuclear strategy and posture. So long as nuclear 
weapons retain such a prominent place in Russian force structure, 
procurement priorities, doctrine, and political rhetoric, it remains an 
important deterrence mission for the United States and NATO to retain a 
policy of, and a serious capability for, nuclear deterrence as a 
potential instrument for dealing with the remote but calamitous 
contingency of a military confrontation with Russia.
    At a minimum, U.S. nuclear deterrence doctrine needs to be clear 
and firm that any use of nuclear weapons against the United States or 
an ally would result in a nuclear counterstrike. In addition, the 
United States should leave on the table the possibility of a nuclear 
response to a strictly conventional Russian assault against a NATO 
ally. The reason for not foregoing this option is not that an early 
nuclear response would be necessary or automatic, but rather because 
there is no reason to assure Russia that this would not happen. 
Moreover, the possibility of nuclear response to nonnuclear attack has 
a critical assurance element as NATO's easternmost neighbors would 
prefer that any potential Russian attack be deterred by the threat of 
nuclear strike, rather than needing to wait for a costly and lengthy 
conventional war of liberation.
    To make these threats credible, the United States must field a 
sufficiently large, flexible, and resilient nuclear force, including 
capable nuclear delivery systems and supporting infrastructure. I, 
therefore, urge this body to fully fund the much-needed modernization 
of this country's nuclear forces and infrastructure as planned.
    In addition, the United States should upgrade its homeland and 
theater ballistic and cruise missile defense systems. While missile 
defenses could not meaningfully blunt a large-scale Russian attack, an 
upgraded system could better provide a defense against, and thus 
complicate Russian calculations for, a more limited strike on the 
United States or its allies.
    At the sub-strategic level, the United States must seek to negate 
Russia's overwhelming battlefield nuclear advantage as this is a major 
contributing causes to Russia's belief that it can achieve escalation 
dominance through a limited nuclear strike. Ideally, this would be done 
through arms control negotiations, but the Russians have refused to 
discuss the reduction of their tactical nuclear weapons and striking an 
agreement under current conditions would be extremely challenging.
    The United States must make sure, therefore, that it has a credible 
response to any Russian battlefield use of nuclear weapons and it is 
not at all clear that it does at present. \16\ The yields of strategic 
warheads may be too large for a credible response to a tactical strike 
and their use would risk escalation to a catastrophic, strategic 
nuclear exchange. The B61 gravity bombs in Western Europe are out of 
range of potential conflict zones in the East without redeployment and/
or refueling, and the aircraft on which they are delivered would be 
highly vulnerable to Russian air defenses. American B-52H bombers and 
nuclear-armed ALCMs are based in the United States, reducing their 
utility for deterrence and assurance missions in Europe.
---------------------------------------------------------------------------
    \16\ For information on U.S. nuclear forces and further details on 
the items in this paragraph, see Hans M. Kristensen and Robert S. 
Norris, ``U.S. Nuclear Forces, 2014,'' Bulletin of the Atomic 
Scientists vol. 70, no. 1 (2014), pp. 85-93.
---------------------------------------------------------------------------
    The United States should, therefore, consider additional options to 
deter Russian nuclear aggression, assure regional allies, and if 
necessary, respond to a limited Russian nuclear strike. The options 
could include: placing lower-yield nuclear warheads on SLBMs and ICBMs, 
training European crews to participate in NATO nuclear strike missions, 
forward basing B61 gravity bombs in Eastern Europe, rotationally basing 
B-52 bombers and nuclear air-launched cruise missiles in Europe, and 
developing a new sea-launched cruise missile, or designating the 
planned long-range standoff weapon (LRSO) for delivery by both air and 
sea.
    The United States must also convince Russia to return to compliance 
with the INF Treaty and, if that fails, to prevent Russia from gaining 
a military advantage from its violation. Washington should, therefore, 
study the development of new GLCMs and their deployment to Europe. It 
should also consider the deployment of cruise missile defenses in 
Europe to defend against Russian nuclear aggression.
    Following through on some of these proposals would reverse 
longstanding U.S. and NATO policy of reducing reliance on nuclear 
weapons as an objective in and of itself. This policy was justifiable 
so long as Russia remained cooperative, but given increased Russian 
nuclear aggression, we no longer have the luxury of reducing reliance 
on nuclear weapons for its own sake and arguably never did.
    Some of these proposals, if adopted, would also run counter to 
promises made to Russia in the NATO-Russia Founding Act of 1997, but 
Putin has already violated key provisions of this act, including the 
commitment to refrain ``from the threat or use of force against . . . 
any other state, its sovereignty, territorial integrity or political 
independence in any manner.'' \17\ It would be foolish for the United 
States to be constrained from taking action necessary for its national 
security by a document that Russia routinely ignores.
---------------------------------------------------------------------------
    \17\ ``Founding Act on Mutual Relations, Cooperation and Security 
between NATO and the Russian Federation,'' May 27, 1997, available at 
http://www.nato.int/cps/en/natolive/official--texts--25468.htm.
---------------------------------------------------------------------------
    I know this Committee will help ensure the maintenance of the 
strong American nuclear forces that have undergirded international 
peace and security for nearly seventy years.
    Thank you again for the opportunity to be here today. I look 
forward to your questions.

    Senator Sessions. We got notice that a vote has already 
started. I am inclined to think that we should just break 
because your statements are very important, and I would like to 
hear them. So we will take a break for the vote.
    I guess that is the signal that the vote has started. So 
why don't we just go and make a quick return in 10-12 minutes 
for one vote. So we will be back.
    [Whereupon, at 2:54 p.m., the committee recessed, to 
reconvene at 3:07 p.m., the same day.]
    Senator Sessions. Okay, we will reconvene. That was not as 
long as sometimes it takes. Senator Donnelly and King got their 
business done and got out of there.
    Senator Donnelly. We have young legs.
    Senator Sessions. Let us see. Dr. Tellis, thank you for 
coming again, and now we look forward to hearing from you.

    STATEMENT OF ASHLEY TELLIS, SENIOR ASSOCIATE, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Tellis. Chairman Sessions, Ranking Member Donnelly, 
members of the committee, thank you for the invitation to 
testify today.
    My testimony focuses on a segment of the Asian nuclear 
space, namely China, India, and Pakistan. My written testimony 
looks at different dimensions of the nuclear programs in these 
countries, but in my oral remarks I am going to focus mostly on 
the drivers that have pushed these countries to modernize their 
nuclear programs. I want to end by identifying some 
contingencies that would be of importance to the United States 
and the challenges for protecting the U.S. strategic deterrent 
as we go forward.
    I would be grateful if you include my written statement 
into the record.
    Senator Sessions. We will make all of your statements a 
part of the record. Thank you.
    Dr. Tellis. Thank you.
    Let me start by noting that although China, India, and 
Pakistan are modernizing their nuclear deterrence 
comprehensively, only China's nuclear expansion is driven 
fundamentally by concerns about the United States. China aims 
to create a nuclear force that is sufficiently immune to both 
United States nuclear and conventional weapons systems, while 
also intending to deter direct United States attacks and 
coercion against China, while contributing to deterring United 
States intervention on behalf of its allies in any regional 
crisis, especially in East Asia.
    Satisfying these multiple aims requires China to have a 
substantial and a survivable deterrent, one that is also 
intended to deter India, Russia, Japan, and other regional 
powers simultaneously.
    India's nuclear program, which historically began in 
response to China's, is intended today primarily to correct its 
abject vulnerability, vis-`-vis Beijing, while also deterring 
Pakistan, India's two principal adversaries. The principal 
thrust of India's nuclear weapons modernization, therefore, is 
focused on increasing the range and survivability of its 
delivery systems primarily to deter China.
    Pakistan's nuclear program, which is perhaps the fastest-
growing program of the three countries, is aimed, as it has 
been from the beginning, at checkmating India's conventional 
superiority. In contrast to both China and India, which view 
their nuclear weapons primarily as second-strike systems, 
Pakistan's nuclear doctrine conceives of its weapons as being 
used first, mainly in response to a conventional attack by 
India. Hence, Pakistan has invested heavily in developing a 
diverse set of capabilities ranging from the strategic to the 
tactical.
    The bottom line is that nuclear weapons programs in the 
greater South Asian region are alive and well and will be so 
for some time to come.
    There are two sets of contingencies that arise from the 
expansion of nuclear weapons in this part of the world. The 
Chinese effort to undermine United States extended deterrence 
in East Asia, especially with respect to Japan, Taiwan, and our 
other treaty allies, and the risks to nuclear security in 
Pakistan remain direct threats to the United States.
    Pakistan's support for terrorism against India under cover 
of its nuclear weapons program and the possible employment of 
nuclear weapons in an Indo-Pakistani or Sino-Indian conflict, 
while undoubtedly serious dangers, remain indirect threats to 
United States interests. To my mind, there are three 
implications for U.S. strategic forces that flow from these 
realities.
    First, U.S. strategic forces remain the ultimate backstop 
for American security and, hence, must be modernized and 
maintained at New START numbers, at least at New START numbers, 
given the prospect of continued nuclear expansion in Asia. In 
other words, given the onerous United States extended 
deterrence commitments in Europe and Asia, United States 
nuclear parity with Russia must not diminish to a point where 
parity with China appears within reach.
    Second, the United States must maintain the requisite 
superiority of the total force that permits it to achieve 
conventional success in regional contingencies, while 
consciously integrating nuclear options into current planning 
for successful power projection in Asia, especially in the 
efforts now underway to defeat China's anti-access area denial 
programs. United States regional allies need the assurance that 
the growing Chinese nuclear capability will not paralyze the 
United States or prevent it from coming to their defense in a 
crisis.
    Third, the desire to reduce the salience of nuclear 
weaponry in global politics is estimable. But that desire 
should not extend to devaluing the utility of nuclear weapons 
for deterrence, damage limitation, and sometimes use against 
difficult conventional targets. Maintaining this balance is 
admittedly challenging, but successful deterrence inevitably 
involves the management of difficult and complex 
contradictions.
    Thank you, Mr. Chairman. I will be happy to answer any 
questions.
   [The prepared statement of Dr. Tellis follows:]      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
      
    Senator Sessions. Thank you very much.
    Dr. Perkovich?

  STATEMENT OF GEORGE PERKOVICH, VICE PRESIDENT FOR STUDIES, 
           CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Perkovich. Thank you to the chairman and ranking member 
and Senator King.
    I am just going to follow on my friend Ashley's comments 
because we are both working on Asia and so burrow into them a 
little bit. In my written testimony, I hit on five themes. 
Here, I am just going to focus on a couple of them.
    The first is to highlight that the threat perceptions and 
nuclear requirements and policies of the states in Northeast 
Asia and South Asia are causally linked to each other and to 
what the United States does. In my written testimony, I have 
got a diagram of this dynamic here, but I think it is often 
lost sight of.
    You can think of it in terms of two triangles. So you have 
the United States, Russia, and China in a triangle. The United 
States benchmarks historically what it needs in terms of what 
Russia had. More recently, we have been benchmarking our 
requirements to what China is doing.
    China, in turn, calculates what its strategic requirements 
are in terms of not only United States nuclear capabilities, 
but also United States cyber capabilities, United States 
strategic conventional capabilities, and ballistic missile 
defenses. So they are all feeding off each other, and it is not 
just nuclear for nuclear.
    There is a second triangle, which includes China, India, 
and Pakistan. So these two triangles meet in China. As Ashley 
talked about, China is the benchmark for India's requirement, 
what it needs in terms of nuclear warheads and delivery 
systems. As already mentioned, though, that target that China 
presents is being affected by China's effort to balance the 
United States.
    India is also balancing against Pakistan--to deter 
Pakistan. China is helping Pakistan. So India has got to be 
thinking about China, Pakistan, and the help that China 
provides Pakistan.
    Pakistan looks at India and calibrates what it needs, but 
Pakistan is also looking at the United States and India 
collaborating and say, ``Okay, what we need is also the product 
of this United States-India collaboration.''
    So you have got these two triangles operating in a very 
keen way, and so I think one take-away for U.S. policymakers 
and the policymakers in the region is to realize that anything 
that we or they do, in terms of capabilities or actions, will 
affect all of the others. That would include force 
modernization. It is not an argument against doing it, but it 
is to understand that there will be reverberations beyond 
China, but into South Asia with whatever is done.
    Second point I want to highlight is that--and Ashley 
referred to it also--the most complicated challenges facing 
U.S. nuclear policymakers today are about extended deterrence. 
In particular, reassuring Japan that the United States has the 
resolve and the capabilities to defend it against armed attack 
from China or any other threat.
    Now, extended deterrence is often conflated with extended 
nuclear deterrence. They are related, but they are not 
necessarily the same thing. It is tempting to believe that the 
potential use of nuclear weapons always strengthens extended 
deterrence, but the issue is actually problematic, and that is 
true in Asia as well as in Europe.
    Potential use of nuclear weapons in an escalating conflict 
can indeed strengthen the potency of our guarantee to the 
countries that we protect. But the very destructiveness that 
the specter of nuclear weapons portends also can weaken the 
resolve of our own society and the protege's society. So the 
classic line, should we trade Los Angeles for Okinawa? Or if 
you are in Japan, if the United States uses a nuclear weapon 
against China, China is going to nuke us.
    So this can be divisive and can be exploited by a potential 
aggressor, and I think we have been seeing this with what 
Russia has been doing in Ukraine. That you make a nuclear 
threat to see if you can split either the guarantor from the 
protege or weaken the resolve of the protege. So it is not an 
automatically positive deterrent effect. It can, in fact, be 
divisive and a weakening one.
    But there is also an opposite problem in extended 
deterrence. That is if the guarantor's resolve is 
unquestioned--our resolve in this case--in the face of a 
countervailing nuclear threat, a nuclear moral hazard may be 
created. It is like a finance company whose managers believe 
that the government will bail them out if they get into ruinous 
losses. The protege may take risks in its policies towards the 
adversary, feeling that the nuclear threat that we offer to 
defend them will bail them out from any crisis. That is a moral 
hazard.
    The other moral hazard, which we also see in finance, is 
that relying on the magic of nuclear deterrence, our allies may 
under invest in conventional capabilities. We can save a little 
money here because we are counting on the nukes to do the 
trick. That is like banks that do not keep adequate Reserves to 
cover their commitments. We have seen that historically in 
NATO, and we have seen it historically with Japan.
    So all of this comes together, I believe, in the situation 
in the Senkaku-Diaoyu Islands, where Japan and China are in a 
sovereignty dispute over these uninhabited islands, and where 
there is a potential of crisis or escalation either on purpose 
or by accident. In 2010, they had two ships collide 
accidentally. Now, you have got two highly nationalistic, kind 
of strongmen leaders in both countries, and if you have one of 
these collisions, it is easy to imagine a potential escalation.
    Obviously, you want to do deal with that by diplomacy, but 
it is worth thinking through the implications of a potential 
conflict and having the conventional capability to prevent 
China from being able to change the facts on the ground.
    It is a conventional issue that they not be able to set 
foot on one of those islands and hold it. Because if you have 
to fight to take it back, and you get into that kind of 
potentially escalating conflict and we are not prevailing, 
someone in this town or someplace else is going to say we ought 
to make a nuclear threat. That is what nuclear deterrence is 
for.
    But then it raises the issue, is it credible or advisable 
for the United States to think about first use of nuclear 
weapons, because that is what we are talking about here, over 
some islands that 99 percent of the U.S. population has never 
heard of and could not find on a map? It seems to me that is an 
invitation for a real disaster in terms of U.S. credibility and 
extended deterrence.
    The way to prevent it is with convention capabilities, both 
ours and the Japanese, and through exercising those 
capabilities. The current U.S. nuclear posture, in terms of the 
numbers envisioned in New START, is totally sufficient to deal 
with that kind of scenario. It is not a nuclear problem.
    Last thing I would say is on South Asia, picking up on what 
Ashley said. Here, I think there really are challenges for U.S. 
policy that have not been well addressed. The dynamic Ashley is 
talking about is an unprecedented one, where you have--the 
conflict starts with a terrorist attack. Then India makes a 
conventional military response. Pakistan says it would respond 
with battlefield nuclear weapons. India, which does not have 
battlefield nuclear weapons, said they will respond with 
massive retaliation.
    There is no theory to deal with that. All the theories of 
deterrence do not deal with the possibility that terrorism is 
this thing that starts it. The theories and practices about how 
you deal with terrorism have never been applied with 
antagonists with nuclear weapons.
    So we are all kind of groping in the dark in this 
challenge, and I think it would behoove the committee and the 
Congress and others in the United States Government to ask, if 
we do get into a situation of a conflict, and the United States 
detects Pakistan to be preparing nuclear weapons for use 
against India--where there are a lot of Americans at all times, 
where American investment is very heavy, we have got a very 
strong Indian-American population in the United States. You see 
Pakistan getting ready, what does the United States do?
    I do not think we have prepared for that. We have not 
thought about it. Do you intervene? How? If not, what do you 
tell India? How do you do it?
    If, God forbid, a conflict like that happens, I am willing 
to bet that the Senate, or the Congress more broadly, will 
conduct an inquiry to ask: What did the President know? When 
did he or she know it? What did they do to prevent it?
    We are not taking the steps now to analyze how you work 
back from that kind of scenario. It has nothing to do with U.S. 
forces. U.S. nuclear forces are irrelevant to this problem, but 
it is a clear and present problem, I would submit, that ought 
to be addressed.
    Let me stop there. Thank you.
    [The prepared statement of Dr. Perkovich follows:]

               Prepared statement by Dr. George Perkovich
    Mr. Chairman, members of the subcommittee, it is an honor to 
testify before you. I have worked on nuclear-weapons-related issues 
since 1982, first with a focus on the Soviet Union, then, after 1992, 
on India, Pakistan and Iran. I have written extensively on each of 
these countries' nuclear programs and policies. Over the past ten years 
I also have analyzed nuclear dynamics in Northeast Asia, particularly 
Chinese and Japanese perspectives on them.
    Because time here is short and the range of topics you have asked 
my colleagues and me to address is extensive, I concentrate my 
testimony on what I think are some cutting-edge strategic challenges in 
Northeast Asia and South Asia that need to be more creatively addressed 
by U.S. policy-makers. These are problems to which no one has tidy, 
feasible solutions--that is, solutions that would change to our 
complete satisfaction the military capabilities and behaviors we want 
other states to change, and thereby significantly reduce risks of 
conflict that could escalate to the use of nuclear weapons. This is 
largely because the other states involved have different interests and 
objectives than the U.S. does and will search for ways to pursue them. 
Knowing that they cannot compete directly and symmetrically with U.S. 
conventional and strategic forces, these states will often seek to 
develop and apply asymmetric capabilities and strategies to balance 
U.S. power. This is especially true of two of the states under 
consideration--the DPRK and China--whose governments fear the U.S. 
seeks ultimately to displace them. The challenge, then, for the U.S. 
and these states is to achieve tolerable stability, avoid escalatory 
warfare, and establish ways of getting along through political-
diplomatic processes backed by balances of power.
    I have divided my testimony into five key points that describe the 
regional dynamics at play and suggest priority policies the U.S. could 
pursue to mitigate instabilities and risks of nuclear escalation.

    1.  Complex causal dynamics drive the threat perceptions and 
nuclear requirements and policies of states in Northeast Asia and South 
Asia.

    This is an analytic and conceptual point that must be recognized if 
the U.S. and others are to devise policies and deploy capabilities that 
will improve security and ameliorate instability in these two inter-
related regions. Setting North Korea to the side for a moment, it may 
help to conceptualize the Northeast Asian and South Asian nuclear 
``system'' in the form of two strategic triangles that are connected by 
a common node, which is China. The following diagram represents this 
idea.
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
      
    The first triangle includes the U.S., Russia and China. Each of 
these state's nuclear requirements and policies (as well as non-nuclear 
instruments of force, deterrence and coercion) affects and is affected 
by the other two states. For example, the U.S. has long seen Russia as 
a benchmark for determining U.S. nuclear posture and policy, and 
recently has factored China more heavily into policy calculations, 
including regarding strategic conventional weapons, cyberwarfare 
capabilities, and ballistic missile defenses. China in turn calculates 
its strategic military requirements and options by reference to current 
and potential threats that it perceives emanating from the U.S., and to 
a lesser extent from Russia.
    The second triangle includes China, India and Pakistan. India seeks 
strategic capabilities to deter major aggression from China and from 
Pakistan today and in the future. Many of the delivery systems and 
nuclear warhead capabilities India seeks are intended to increase its 
capacity to deter China, whose current and future capabilities in turn 
are driven in large part by perceptions of threat from the U.S. 
Pakistan then seeks nuclear and other capabilities to balance what it 
perceives India to be acquiring. Many Indian analysts perceive that 
China is assisting Pakistan's strategic acquisitions, so India seeks 
not only to balance China, but also to balance the gains Pakistan may 
achieve in cooperation with China. For its part, Pakistan increasingly 
perceives the U.S. and India to be cooperating in buttressing Indian 
military capabilities with which Pakistan must contend.
    From the perspective of the United States, the main takeaway from 
this depiction of the strategic force dynamics involving these states 
is that policies, capabilities, and operational plans we develop to 
affect one of these states may cause others also to react in turn.
    For example, a former commander of India's strategic forces 
recently explained to me that ``what the U.S. does to extend deterrence 
to its allies in East Asia affects China which then acts in ways that 
challenge India. The Chinese note and build up capability, strategy and 
philosophy to deal with what the U.S. is doing. The Chinese have 
deployed large numbers of conventionally armed ballistic missiles and 
cyber capabilities and anti-satellite weapons to deny U.S. forces 
access into areas sensitive to them, primarily around Taiwan. Those 
capabilities could be used against India, too.''
    Pakistanis constantly assert that the so-called U.S.-India nuclear 
deal could significantly boost India's stockpile of fissile material 
that could be used to build up its nuclear forces. Similarly, they say, 
potential U.S. cooperation with India on ballistic missile defenses 
could require Pakistan to further increase the numbers and diversity of 
its missile armory and nuclear warhead inventory.
    Of course, much the same could be said about China's cooperation 
with Pakistan and Russia's cooperation with India. This is not to 
suggest that the U.S. and these other states should desist from all 
such policies and activities. Rather, the point is that these policies 
and activities are inter-related more than is commonly recognized. If 
strategic instability is going to be redressed in Northeast and South 
Asia, each state, including the U.S. must be more willing than they 
heretofore have been to acknowledge and address how their own 
capabilities and actions affect the others. Among other things, this 
means that prospective policies must be considered in a regional 
context, not merely a bilateral one.

    2.  Regarding China, the most fundamental challenge for U.S. policy 
is to engage Beijing in tempering several forms of security dilemmas 
and affirming that neither state will initiate the use of force to 
change the territorial status quo in Northeast and South Asia.

    In John Herz's famous words (at least amongst wonks), the security 
dilemma is ``A structural notion in which the self-help attempts of 
states to look after their security needs tend, regardless of 
intention, to lead to rising insecurity for others as each interprets 
its own measures as defensive and measures of others as potentially 
threatening.''
    The U.S. and China confront security dilemmas of their own making 
in at least three domains.
    One pertains to concerns of the U.S. and its protectorates--most 
acutely Taiwan and Japan--that China may use its growing economic and 
military power to coerce them in territorial and political disputes. 
China, for its part, has countervailing concerns that the U.S. and its 
allies may seek to apply military power to advance their preferred 
positions vis a vis China, particularly in case of a crisis over the 
political evolution of Taiwan as it relates to China. (China has a 
deeper concern that the U.S. seeks to subvert its political order and 
foster democratization. It is difficult for the U.S. to convince 
Chinese leaders that while we desire political change in their country 
we do not intend to use our military capabilities and policies to bring 
this change about). The famous ``three communiques'' issued by the U.S. 
and China between 1979 and August 1982 \1\ created a modus vivendi on 
these questions related to Taiwan, but both countries remain wary that 
it could be fragile. Each side in this security dilemma builds military 
power, and, in the U.S. case occasionally sells arms to Taiwan. Each 
also sometimes makes political declarations intended to preserve its 
defensive positions, but which the other side may interpret as 
expressions of intent to change the status quo.
---------------------------------------------------------------------------
    \1\ The third communique, in August 1982, states in part: ``The 
United States Government attached great importance to its relations 
with China, and reiterates that it has no intention of infringing on 
Chinese sovereignty and territorial integrity, or interfering in 
China's internal affairs, or pursuing a policy of ''Two Chinas'' or 
''one China, one Taiwan.'' The United States Government understands and 
appreciates the Chinese policy of striving for a peaceful resolution of 
the Taiwan question as indicated in China's Message to Compatriots in 
Taiwan issued on Jan. 1, 1979, and the nine-point proposal put forward 
by China on Sept. 30, 1981.
---------------------------------------------------------------------------
    A second security dilemma arises from each side's build-up of non-
nuclear forces--conventionally-armed ballistic missiles, naval and air 
forces, ballistic missile defenses, and cyberwarfare capabilities--
which each justifies as means to defend against the presumed offensive 
intentions of the other. This dynamic creates arms race instability, 
whether of a symmetric or asymmetric nature. For example, China for 
years has steadily augmented its arsenal of conventionally-armed 
ballistic missiles and anti-satellite weaponry to offset the United 
States' superior naval power projection capabilities. The United 
States' ongoing ballistic missile defense program can be seen as an 
effort to maintain a long-standing asymmetric advantage in the nuclear 
domain, and as a way to offset China's build-up of conventionally armed 
ballistic missiles. Both states, led by the U.S., are developing 
conventional prompt-strike weapons. Additionally, the U.S. and China 
both are engaged in a cyberweapon arms race, with China trying to catch 
up to the U.S.
    A third security dilemma exists in the domain of nuclear policy. 
China fears that the U.S. seeks to acquire means to negate its nuclear 
deterrent, through some combination of offensive nuclear forces, future 
hypersonic conventionally-armed missiles, ballistic missile defenses, 
and cyberwarfare capabilities.
    China is assessed to possess approximately 250 nuclear warheads. It 
is assessed to deploy between 50-75 ballistic missiles capable of 
carrying nuclear weapons to the United States, and another 
approximately 60 intermediate range ballistic missiles suited for use 
against India, Japan or Taiwan. By comparison the United States' 
operationally deploys 2,200 nuclear weapons. China is estimated to 
possess an additional 16 tonnes of highly-enriched uranium and 1.8 
tonnes of non-civilian separated plutonium, compared to the United 
States' stockpile of 604 tonnes and 87 tonnes, respectively. The U.S. 
and its proteges fear that China may someday add dramatically to its 
nuclear forces in ways that would undermine--along with conventional 
anti-access area-denial capabilities--the American deterrent extended 
to Taiwan and Japan. Each side in this competition does not adequately 
acknowledge how its own actions drive the other to take the actions 
that it sees as threatening.
    To deal with these challenges, the U.S. does not need more or 
different nuclear forces than it already possesses and plans to possess 
after implementation of the New Start Treaty with Russia. In terms of 
capabilities, the greater imperative is to acquire and/or deploy non-
nuclear instruments to preserve the United States' capacity to quickly 
defend its protectorates against and to deter Chinese actions to 
initiate changes in the territorial status quo in the region. Such 
potential Chinese actions are very unlikely to involve its nuclear 
forces, and it is thus in the U.S. interest to counter with strong, 
symmetrical conventional capabilities.
    A more immediately pressing need is to motivate Chinese leaders to 
join the U.S. and, where appropriate its allies, in articulating and 
authenticating policies that would reassure all sides in these security 
dilemmas that they will not initiate the use of force to change the 
territorial or political status quo or to otherwise coerce each other. 
To this end, it will be necessary for Chinese officials to understand 
the concept of the security dilemma and recognize how their words and 
deeds sometimes exacerbate it.
    With regard to nuclear policy, the key dilemma concerns first-use 
of nuclear weapons. Retaliatory use of nuclear weapons is a 
comparatively straightforward proposition; the destabilizing factor is 
the prospect that the U.S. or China would initiate attacks--by nuclear, 
conventional, or cyber means--on the other's nuclear deterrent forces 
and/or their command and control systems. The U.S. would be wise to 
overcome its politically motivated reluctance to assure China that it 
will not seek to negate China's nuclear deterrent. Washington should do 
this out of recognition that mutual nuclear vulnerability is a fact of 
21st century life with China, and attempting to negate this fact 
through a combination of new offensive and defensive systems would not 
succeed at a cost that the U.S. would find acceptable to itself. The 
language authored by a 2009 Council on Relations Task Force on U.S. 
Nuclear Policy chaired by William Perry and Brent Scowcroft could be a 
model: ``mutual vulnerability with China--like mutual vulnerability 
with Russia--is not a policy choice to be embraced or rejected, but 
rather a strategic fact to be managed with priority on strategic 
stability.''
    For its part, China should be motivated to reciprocate 
constructively by clarifying that as long as U.S. policies and military 
capabilities reflect this assurance China will not significantly 
increase its nuclear weapon arsenal and threaten to use force to alter 
the territorial status quo and/or resolve ``the Taiwan question.''
    Such declarations of fundamental policy would not preclude the 
U.S., China, or other states from modernizing and bolstering their 
strategic offensive and defensive capabilities, but they would provide 
a framework within which each party could explain to the other how its 
actions are not inconsistent with fundamentally defensive intentions 
and assurances. This would be constructive on its own terms, and could 
eventually create conditions for possible negotiation of arms 
limitations.

    3.  One of the most complicated challenges facing U.S. policy-
makers today is to reassure Japan that the U.S. has the resolve and 
capabilities to defend it against armed attack from China or any other 
state.

    Extended deterrence is never easy to provide or depend upon. The 
protege often will fear that its protector will abandon it. At other 
times, the protege may fear that the protector will entrap it in a war 
that the protege would otherwise seek to avoid. The guarantor, on the 
other hand, must convince the protege as well as the adversary that the 
guarantor will put its soldiers and citizens and treasury at risk in 
order to defend another. This is especially problematic insofar as the 
protege may itself act in ways that instigate a potential conflict, 
raising legitimate questions about whether the guarantor should or 
would invite the costs of coming to its defense in such a situation.
    Extended deterrence is often conflated with extended nuclear 
deterrence. While it may be tempting to believe that the potential use 
of nuclear weapons always strengthens extended deterrence, the issue is 
problematic. Potential use of nuclear weapons in an escalating conflict 
can indeed strengthen the potency of the guarantor's deterrent against 
a potential aggressor. But the very destructiveness that this portends 
also can weaken the resolve of the guarantor state's population (should 
we trade Los Angeles for Taipei?) as well as the protege's population 
(if the U.S. uses nuclear weapons on China, China will respond first by 
targeting nuclear weapons at Japan). These possible reactions may tempt 
a potential aggressor into thinking that the mere threat of aggression 
that could escalate to nuclear use can split an alliance, or 
demonstrate the guarantor's weak resolve, constituting a bluff that may 
be called.
    On the other hand, if the guarantor's resolve is unquestioned in 
the face of a countervailing nuclear threat, nuclear moral hazards may 
be created. Like a finance company whose managers believe that the 
government will bail them out if they face ruinous losses, the protege 
may take unwise risks in its policies toward its adversary, feeling 
that the nuclear threat proffered by the guarantor will deter the 
adversary from reacting forcefully. The protege also may under-invest 
in non-nuclear defensive capabilities that would otherwise obviate the 
need to resort to nuclear threats to deter the adversary, like a bank 
that does not maintain conservative levels of reserves to cover its 
commitments.
    This sort of hazard has long affected the United States' relations 
with its NATO allies, most of whom do not meet their commitments to 
devote two percent of their GDP to defense. Japan, too, has not always 
carried its full share of the defense burden with the United States. 
Its defense spending declined between 2002 and the arrival of the new 
Abe government in 2013. Now Japan is pursuing plans for an increase in 
procurement of major systems, and the U.S. and Japan have intensified 
exercises and other cooperative activities to solidify defense in the 
East China Sea. Still, the national government in Tokyo has not 
successfully overcome local governments' reluctance to cooperate in 
relocating U.S. military bases on Okinawa. It is common in Washington 
to hear complaints that an administration is not doing enough to 
reassure Japan of the United States' commitment to defend it; it is 
less common to hear of even private congressional remonstrances to 
Japanese officials that they should do more to buttress the alliance 
materially and diplomatically (vis a vis Japan's neighbors). A careful 
complementarity is required to match increases in defense preparedness 
with political and diplomatic sensitivity to the concerns this can 
cause in states that experienced Japanese aggression in the 1930s.
    These considerations can be applied to the issue that currently 
poses the greatest risk of potential conflict involving Japan and 
China, and implicating the U.S. as Japan's protector. There is a 
cluster of islands and rock outcroppings in the East China Sea that 
Japan calls the Senkaku Islands and China calls the Diaoyu Islands. 
Japan incorporated the islands under the administration of Okinawa, in 
January 1895, during the first Sino-Japanese War. The U.S. took control 
of these outcroppings as a result of World War II, and returned them to 
Japanese control in 1972. China disputes Japan's right to sovereignty 
over these islands. The U.S. does not offer a judgment on the disputed 
claims to sovereignty, but says that the islands fall within the 
territory the U.S. is obligated by treaty to help Japan defend. The 
Japanese government in late 2012 bought the islands from a private 
owner, explaining that it did so to prevent the nationalist governor of 
Tokyo from acquiring and developing them. Reflecting the logic of 
security dilemmas, China intensified its contestation over the issue, 
and deployed naval vessels and aircraft around and over the islands in 
order to manifest its claim and pressure Japan to proceed carefully. A 
non-trivial risk now appears that either state could act physically to 
change the status quo on or around these islands, and/or that the naval 
vessels or aircraft could collide, as happened with a Chinese fishing 
vessel and a Japanese Coast Guard ship in 2010. Such collisions could 
create a severe crisis that the highly nationalistic Chinese and 
Japanese governments could find difficult to de-escalate.
    Were such a crisis to occur when China and Japan are led by 
strength-projecting nationalistic figures, the U.S. would face 
excruciatingly complex challenges. The first priority would be to 
resolve the crisis diplomatically. But this could be very difficult to 
do, depending on the circumstances. Japan and China would dispute whose 
actors and actions were to blame for the precipitating action. If the 
U.S. did not take its ally Japan's side, whatever the merits of the 
case, some faction in Washington would decry the abandonment of an 
ally. If Japan were at fault and the U.S. did not acknowledge this for 
political-diplomatic reasons, China would become even more determined 
to press its claims on this dispute and others that involve U.S. 
allies. If evidence held that China was at fault, the political-
diplomatic position of the U.S. would be simpler, but then the U.S. and 
Japan would likely find themselves in a potentially escalating conflict 
with China.
    In either case, to augment diplomacy and strengthen deterrence, and 
to prevail in case diplomacy fails, the U.S. and Japan would need to 
have the conventional military means to prevent China from creating new 
``facts on the ground,'' for example by physically taking control of 
the islands. Failure to ensure this initial defense could create a 
situation where the U.S. and Japan would feel compelled to fight China 
to reverse its gain. Such a conflict could escalate and expand to a 
wider naval battle or blockade contest as each leadership would feel 
its credibility and political survival at stake. Were the U.S. and 
Japan not prevailing, someone in Washington or Tokyo would at least 
raise the prospect that the conflict could escalate to the use of 
nuclear weapons. After all, that's how nuclear deterrence is supposed 
to work. Yet, would even implying a nuclear threat be advisable and 
therefore credible? Would and should the United States be willing to 
risk nuclear war over uninhabited rocks in East Asia that 99 percent of 
the American people have never heard of and could not find on a map? 
Recall, the issue here would be first-use of nuclear weapons: if China, 
despite its commitment and force posture of no-first-use, took steps 
signaling that it would break the nuclear taboo, U.S. recourse to 
retaliatory nuclear weapons reasonably would be on the table. But 
threatening to initiate the use of nuclear weapons in conflict that 
erupted over these disputed outcroppings--no matter how far it 
escalated--would constitute a profound over-reaction.
    Japanese leaders and citizens may not appreciate this analysis. 
They may prefer to over-rely on the magic of nuclear deterrence. But 
statesmanship requires realism, dealing with facts and assessing 
strategic risks. Japan and the United States must recognize the 
imperative of developing and deploying diplomacy and conventional 
military power to prevent efforts by anyone to forcibly change the 
status quo surrounding this territorial dispute. The combination of 
clear commitments not to upset the status quo and demonstrable non-
nuclear means to prevent anyone else from physically changing it 
constitutes the strongest possible extended deterrent, for it reaffirms 
a fundamentally defensive posture that augments national and 
international resolve.
    The current and projected nuclear arsenal of the United States is 
more than sufficient to perform the physical requirements of extending 
nuclear deterrence to Japan against China. Nor is it evident that 
``strengthening'' U.S. declaratory policy regarding the use of nuclear 
weapons would enhance (and not otherwise undermine) the feasibility and 
durability of the extended nuclear deterrent.

    4.  North Korea will not in the foreseeable future agree to 
relinquish all of its nuclear weapons and related capabilities. The 
near-term imperative should be to negotiate constraints on the buildup 
of DPRK nuclear capabilities and enforceable commitments not to 
transfer them to others.

    Japanese and South Korean leaders are politically and 
psychologically unprepared to negotiate anything less than complete 
DPRK disarmament, for complex reasons. This in turn intensifies 
political pressures on any American administration not to deviate from 
this stated objective. This motivates North Korea to demand an 
exorbitant price for cooperation, which its interlocutors doubt the 
DPRK will fully implement in any case.
    A more realistic alternative would be to bargain for incremental 
steps by the DPRK to stop increasing its nuclear stockpile and to 
eschew proliferation of nuclear materials and know-how to other actors. 
These forms of restraint by the DPRK could be more achievable at a 
lower price than the DPRK seeks for the illusory objective of total 
nuclear disarmament.
    Acknowledging that DPRK will retain some nuclear weapons for the 
foreseeable future offends our sense of virtue, as does embarking on 
what amounts to a protection-racket arrangement to pay the DPRK for not 
damaging the neighborhood. But the perfect may be the enemy of the 
somewhat tolerable here: by acknowledging that the DPRK would retain a 
limited nuclear capability to satisfy its regime's need to deter U.S. 
and other efforts to displace it, the U.S. and other negotiating 
parties would strengthen their leverage to obtain North Korean 
cooperation in mitigating its other threatening behaviors. Arguably, 
this is the best outcome that might be achieved today.
    For such an adjustment in negotiating objectives to be sustainable, 
the U.S., Japan, South Korea, China and Russia would need to devise a 
formula that would affirm their ultimate goal to be the creation of a 
regional security environment free of nuclear weapons on the Korean 
Peninsula. Such a goal is necessary to satisfy the political-
psychological needs of South Korea and Japan. Yet, the prospect of 
freeing the Korean Peninsula of all nuclear weapons and (still to be 
defined) supporting infrastructure would be more realistic after the 
relevant parties had incrementally built mutual confidence by stopping 
the expansion of North Korea's nuclear arsenal and infrastructure and 
authenticating that the DPRK was not transferring weapons, material, 
and know-how to others.
    In terms of U.S. nuclear force requirements and posture, the 
nuclear threat posed by the DPRK is a lesser-included challenge that 
can be more than adequately covered by nuclear (and non-nuclear) forces 
that the U.S. will retain as part of its larger requirement to deter 
Russia and China.

    5.  India and Pakistan will continue to augment their nuclear 
arsenals. The imperatives now are to prevent another major terrorist 
attack from Pakistan against India and reduce the risks of escalation 
to nuclear war.

    South Asia is the most likely place nuclear weapons could be 
detonated in the foreseeable future. This risk derives from the unusual 
dynamic of the India-Pakistan competition. The next major terrorist 
attack in India, emanating from Pakistan, may trigger an Indian 
conventional military riposte that could in turn prompt Pakistan to use 
battlefield nuclear weapons to repel an Indian incursion. India, for 
its part, has declared that it would inflict massive retaliation in 
response to any nuclear use against its territory or troops. Obviously, 
this threatening dynamic--whereby terrorism may prompt conventional 
conflict which may prompt nuclear war--challenges Indian and Pakistan 
policy-makers. India and Pakistan both tend to downplay or dismiss the 
potential for escalation, but our own history of close nuclear calls 
should make U.S. officials more alert to these dangers. The U.S. is the 
only outside power that could intervene diplomatically and forcefully 
to de-escalate a crisis.
    India, is believed to possess approximately 90-110 nuclear weapons. 
It plans to deliver them via aircraft and/or a growing fleet of 
ballistic and perhaps cruise missiles. Available information suggests 
it keeps the nuclear bombs and warheads separate from their aircraft 
and missile delivery systems. With a historically entrenched doctrine 
of No First Use, and a strict insistence on civilian control over 
nuclear policy, India plans to mate weapons and delivery systems only 
when the need for their potential use appears imminent. While India 
retains significant quantities of plutonium outside of civilian 
control, which it conceivably could use to dramatically expand its 
nuclear arsenal, India thus far rejects ideas of nuclear war-fighting 
and corresponding development of a large nuclear arsenal, much as China 
does.
    Pakistan is estimated to have 100-120 nuclear weapons, with a 
continually growing capacity to produce plutonium and highly-enriched 
uranium to expand this arsenal if it chooses to. Pakistan continues to 
add new missile delivery capabilities to its arsenal. Most noteworthy 
has been the development of the NASR 60-kilometre range missile, which 
Pakistan projects as a battlefield weapon to deter Indian ground-force 
incursions into its territory. Pakistan proffers the threat of 
initiating nuclear use if and when it would be necessary to defeat what 
it would perceive as Indian aggression from land, air and/or sea.
    India faces two inter-related strategic challenges vis a vis 
Pakistan: to compel Pakistani authorities to curtail the operations of 
anti-Indian terrorists; and to deter Pakistan from engaging in 
escalatory warfare if and when India responds violently to a terrorist 
attack. The new prime minister of India, Narendra Modi came to power 
with a reputation for strong action, which he and his supporters 
juxtapose to the perceived weakness of his predecessors. Indeed, Modi's 
government recently unleashed the Indian Army to retaliate with 
disproportionate force against traditional Pakistani artillery shelling 
across the disputed Line of Control in Kashmir. Senior advisors to the 
prime minister have said that there should be little doubt he will 
respond forcefully if India is attacked again by terrorists associated 
with Pakistan.
    The questions are, what strategy (or strategies) and capabilities 
would be feasible and effective to enable India to motivate Pakistan's 
security establishment to demobilize anti-India terrorist groups? If 
terrorist attacks cannot be prevented, how can India respond to them in 
ways that minimize risks of escalation that would be unfavorable to 
India?
    Since the major Indo-Pak crisis of 2001-2002 following a terrorist 
attack on India's parliament building, Indians have debated options 
ranging from Army-centric ground thrusts into Pakistan, precision air 
strikes, covert operations, and non-kinetic efforts to isolate and 
sanction Pakistan.
    Clearly, some actions that could most probably satisfy one of 
India's multiple domestic and bilateral objectives would lessen the 
chances of achieving others. For example, satisfying the desire to 
punish Pakistan could be achieved by a relatively wide range of 
military actions and international economic sanctions. But the more 
destructive of possible military actions could raise the overall scale 
and costs of the conflict to levels disproportionate to the harm done 
by the initial attack on India, and invite unwelcome international 
responses. For example, a successful ground campaign into Pakistan 
would be most likely to prompt Pakistan to use battlefield nuclear 
weapons to stop Indian forces and compel them to leave Pakistani 
territory.
    No theories in the existing international literature or in other 
states' practices offer guidance regarding how India could most 
effectively proceed here. Studies of strategies and tactics to deter 
and defeat terrorism have not addressed situations when the major 
antagonists possess nuclear weapons. Theories and case studies of 
nuclear deterrence and escalation management in a nuclearized 
environment have not involved cases where terrorists with unclear 
relationships to one of the state antagonists are the instigators of 
aggression and the ``unitary rational actor'' model may not apply. The 
Indo-Pak competition features both sets of challenges with the added 
complication that third states--primarily the U.S. and China--also 
figure heavily in the calculations of decision-makers.
    All of this has implications for U.S. policy-makers. Historically 
and today, the U.S. has not planned for its nuclear forces to serve 
deterring or war-fighting roles against Pakistan and/or India. Thus, 
South Asian scenarios do not figure in calculating the adequacy of U.S. 
nuclear forces.
    However, there are possible scenarios in which the U.S. could 
become directly implicated in nuclear crises with Pakistan and/or 
between India and Pakistan. Pakistan fears that the U.S. in certain 
circumstances might conduct military operations to capture or otherwise 
neutralize Pakistan's nuclear forces and fissile materials. Indeed, one 
of the most telling Pakistani reactions to the U.S. raid that killed 
Osama Bin Laden was to intensify efforts to hide and secure their 
nuclear assets. Some of these protective steps could be welcome insofar 
as they also could help secure Pakistan's nuclear assets against 
possible efforts by militant non-state actors or rebelling military 
units to capture them. This scenario--radicals in Pakistan acquiring 
nuclear weapons and/or fissile materials--has alarmed successive U.S. 
administrations. Given fears of nuclear terrorism, it would be 
reasonable for relevant U.S. government actors to aspire to have the 
precise intelligence and capabilities required to, in a crisis, locate 
Pakistan's nuclear assets and seek to remove or disable them. Whether 
the U.S. has the requisite capabilities cannot be gleaned from public 
sources, but the task would be extremely daunting given the number of 
Pakistan's nuclear weapons, the volume of its fissile material, and 
their dispersal to well-hidden and defended facilities.
    In any case, while some Pakistani authorities might welcome a 
successful U.S. operation during an internal Pakistani crisis to keep 
the country's nuclear weapon capabilities from falling into the hands 
of anti-state groups, the possibility of such an operation would 
generally be seen as deeply threatening to Pakistan. Few would be 
confident that the U.S. would only intervene when it might be welcomed; 
all would worry that the U.S. might intervene in a very different 
scenario in which Pakistan was embroiled in a conflict with India. 
Indeed, the worst nightmare for Pakistani strategic planners is a 
combined U.S.-Indian effort to negate, or at least degrade, their 
nuclear deterrent.
    This may seem far-fetched today, and I am unaware of scholarly or 
official analyses of such a possibility. However, I think the following 
questions suggest that it would behoove the U.S. government to work 
discreetly on this problem. If India and Pakistan become embroiled in a 
major military conflict following a major terrorist attack on India 
attributed to Pakistan, and the U.S. detects Pakistan to be readying 
nuclear forces for use, should the U.S. intervene to prevent the use of 
nuclear weapons?
    Consider that the U.S. and India are now self-proclaimed strategic 
partners, and many thousands of Americans live in India or regularly 
visit it, reflecting ever-increasing U.S. commercial investments and 
interests in India. Consider also the large and prominent Indian-
American community who feel passionately about their native home and 
participate ever more actively in American politics. If nuclear weapons 
were being readied for use, with a real prospect of escalation to 
nuclear war between India and Pakistan, would U.S. leaders feel they 
should simply stand back and watch? If, God forbid, nuclear weapons 
were detonated and Americans were among the casualties, would not 
Congress demand an inquiry to learn ``what did the president know and 
when did he know it, and why did he or she not act to try to prevent 
it?'' Would there not be an expectation that the government had done 
contingency planning for such an emergency, given how long Pakistan and 
India have had nuclear weapons and how central the U.S. has been in 
resolving earlier crises between them?
    Members of Congress are much better positioned to answer these 
questions than I am. But I would wager that there is some prospect that 
U.S. leaders would at least be expected to have prepared for such a 
contingency, even if the preparations concluded there was little that 
could be done physically to prevent it.
    Indeed, we should assume that Pakistani military strategists are 
thinking of scenarios in which the U.S. might alone, or in cooperation 
with India, intervene in a looming nuclear conflict to stay Pakistan's 
hand. In this case, Pakistani planners will be considering whether and 
how they could deter the U.S. from such intervention. Of course, 
inviting war, possibly nuclear war, with the United States would be a 
terrible risk. But in a scenario in which Pakistani military leaders 
were considering nuclear war with India already, and the U.S. was seen 
to be denying this recourse to a perceived existential necessity, this 
could be a risk that they could be willing to threaten to run.
    I close by suggesting that, as in the earlier discussion concerning 
Northeast Asia, the nuclear challenges in South Asia will not be 
redressed by more or newer U.S. nuclear weapons or changes in U.S. 
nuclear doctrine. There is no evidence to the contrary. The most 
immediately pressing objective of U.S. policy should be to apply 
vigorous, creative diplomatic and political energy to prevent another 
crisis between India and Pakistan, and if one cannot be prevented, to 
enhance the preparation of Indian, Pakistani and American officials to 
manage it with minimal escalation.

    Senator Sessions. Well, those are thoughtful and great 
issues to discuss. Thank you for sharing your thoughts and 
leadership with us.
    Dr. Krepinevich, Henry Kissinger testified a few weeks ago 
before the Armed Services Committee, and he was pretty 
animated--and it is in his book, too--about what he considers 
an alteration of our initial negotiating policy with Iran, to 
accept them getting within months of having a nuclear weapon. 
He expressed the concern at the hearing that this creates a 
circumstance where Turkey, Saudi, Egypt may feel if they are 
within months of weapon, then they practically have one, and 
they need to have one.
    What thoughts would you have about that danger and what we 
can do to prevent it?
    Dr. Krepinevich. Well, certainly if I were a neighbor of 
Iran's, and we are looking at a short sprint to a nuclear 
weapon, if the declared goal now is to keep them a year out, 
that assumes, I believe the Deputy Secretary of State said, an 
unprecedented level of intrusion and verification to keep them 
at that level. The question is, can we achieve that?
    So far, I think the history has been that the cheaters 
often seem to have an advantage. Even President Reagan, who was 
famous for saying ``trust but verify,'' during his presidency, 
the Soviets were cheating on the ABM Treaty and on the 
biological conventions treaty.
    Our success in trying to impose constraints on countries 
like North Korea and Iran has been limited at best and 
unfortunate at worst. So I think it would be very difficult, as 
I said in my testimony, absent a clear threat of military 
action or military action, to get the Iranians, at this point, 
given the investment they have made, the trouble they have gone 
through, the damage to their reputation they have sustained, to 
deflect them.
    You can see that there are clear benefits to Iran from 
having a nuclear capability, both in terms of regime 
preservation, which I assume is probably their top priority, 
and then advancing their aims throughout the region.
    Senator Sessions. Well, I think, so if you are a Saudi 
Arabian, and you think you have the ability to achieve a 
nuclear weapon through research or money, then if you think 
your adversary is within months, 12, 9, I believe--actually, I 
think Kissinger used the word ``9 months,'' then you could have 
a proliferation.
    How dangerous would it be if we ended up with Turkey, Saudi 
Arabia, and Egypt with nuclear weapons?
    Dr. Krepinevich. Well, I would say it is certainly----
    Senator Sessions. Anything that our nuclear arsenal should 
be altered to deal with that?
    Dr. Krepinevich. Under those circumstance where, say, you 
had a nuclear-armed Saudi Arabia next to Iran, as I mentioned 
earlier, the ability to have an effective attack warning system 
and command and control system would certainly test the limits 
of technology, test the resources of both countries, both in 
terms of financial and in terms of the manpower resources.
    During the Cold War when we were placing the Pershing 2s 
into Western Europe, the Soviets at the time, according to the 
documentation that has come out, actually explored an option 
called the ``dead hand,'' which is--if you have seen the movie 
``Dr. Strangelove,'' it is an automated nuclear response 
mechanism, because they were concerned that the Pershings would 
give them such little warning time that they might be faced 
with a decapitation attack. They eventually moved toward 
something I understand called ``perimeter,'' which is semi-
automated.
    In this case, I think what we might be able to offer 
countries like Saudi Arabia, hopefully, is, to the extent that 
we can, effective attack warning. Perhaps a willingness, 
hopefully, to dissuade them from acquiring their own nuclear 
weapons by offering extended deterrence. The possibility of 
missile defense, although I am skeptical about missile defense 
for a couple of reasons.
    One is in the Cold War, we had nuclear plenty before we had 
missile plenty, and we went to MIRV systems. So the problem we 
faced right now is opposite, in the sense that Iran has missile 
plenty, but not nuclear plenty.
    So in a short-range attack on Saudi Arabia, if they did not 
need--if they could go beyond the Shahab-3 missiles and use 
some 1s and 2s, they may create a problem for us in terms of 
having a lot of decoys--maybe 4 or 5 missiles with nuclear 
warheads on it, 20 or 30 missiles in the attack overall, and 
force our missile defenses to actually engage them all. We 
would be at the losing end of a missile defense proposition.
    Senator Sessions. You do think providing a nuclear umbrella 
to our allies in the region is something that would have to be 
considered?
    Dr. Krepinevich. Certainly, I think so. Again, this is--I 
think there is a lot of virgin strategic territory here.
    Senator Sessions. Would we then need to move advance 
locations for our nuclear weapons, if that were to occur?
    Dr. Krepinevich. Again, I would want to think through the 
issue. I was about to say that if you had, as you said, 
multiple states--Turkey, Saudi Arabia, Iran--and just for a 
thought experiment, each had 50 nuclear weapons, then if you 
are the Saudis, you may have to plan against an attack by 100 
nuclear weapons. You cannot have parity with everyone in an 
end-state competition.
    To the extent the United States provides nuclear 
guarantees, that could offset some of the fears that, in fact, 
even though I am inferior numerically in terms of nuclear 
weapons, the United States can help make up the difference.
    So, again, we have never really, to my knowledge, gotten 
into a detailed analysis of end-state nuclear competitions, 
especially when warning times are extremely short, and as 
George points out, you are looking at other factors, such as 
the ability of conventional weapons to substitute for nuclear 
weapons, advanced defenses, cyber weaponry, and so on.
    Senator Sessions. Well, it is definitely a complex thing. 
It seems to me that if you have got now Iran, Saudi Arabia, 
other nations with nuclear weapons, you have got four Nations 
perhaps who would use nuclear weapons if their existence is at 
threat. So you have increased danger of a first use in the ways 
that we maybe have not thought through.
    Dr. Krepinevich. Certainly, you have more triggers--fingers 
on the trigger. I would be interested in my colleagues' 
reaction, too.
    One thing, of course, that concerns some folks is the 
Saudi-Pakistani connection. Should Pakistan, for example, 
deploy weapons in Saudi Arabia, certain countries--Israel 
included--might view that as weapons, even though they are 
under nominal Pakistani control, actually being under the de 
facto control of the Saudis. While, at the same time, what is 
the view of India? Does India view this move as an effort by 
Pakistan to create strategic depth in terms of its nuclear 
forces?
    So I think George was getting to this point. You cannot 
just segment these particular problems by region. In some 
cases, they are transregional problems.
    Senator Sessions. Thank you. These are so complex, but I 
think we better give up my time to Senator Donnelly. I have 
hogged too many minutes.
    Senator Donnelly. Thank you, Mr. Chairman.
    Dr. Perkovich, you know we have spoken to General Campbell 
recently, and he talked about how relations between he and the 
Pakistan army are better than they have been in a very, very, 
very long time. Then you flip to the nuclear side, and you have 
Pakistan increasingly perceiving the United States and India to 
be cooperating together, and it puts them in a tougher spot, 
Pakistan feels.
    How do you balance off this?
    Dr. Perkovich. It is a great question, and you might get a 
good debate going with Ashley and me, but I do not----
    Senator Donnelly. On the one side, we are supposedly 
working better than ever, and it is like going down the hall 
into another room, and you have a completely 180 perspective.
    Dr. Perkovich. I think I work back from--and this does not 
go over really well in Pakistan, but sometimes, you know, you 
just stick with something if you believe it is true.
    Senator Donnelly. We just want to know what you think.
    Dr. Perkovich. The good news is India has no desires for 
any Pakistani territory or anything in Pakistan. So, the 
``threat from India'' is only in response to Pakistani 
aggression in India, or terrorism in India.
    That is a basis for the United States in our relations with 
the Pakistanis to say, look, if we can cooperate in getting at 
the terrorism problem within Pakistan, what you are worried 
about from India goes away, number one. Number two, the 
influence that we might have in India can help reassure you of 
that, which, by the way, did happen in 2001 and 2002. Ashley 
was out in Delhi in the embassy there--there was a crisis--
where the U.S. was trying to stay both of their hands.
    So there is a basis, if you can get at the terrorism 
problem. If Pakistan cannot commit itself to working against 
the terrorists that have operated in India, then there is not 
much we can do to reassure them, but I would argue there is 
probably not much we should do to reassure them because that 
really is a problem.
    Senator Donnelly. Let me ask you--and this is not exactly 
on the nuclear topic, but do you see it as a long-term 
gamechanger what happened with the Army Public School in 
Pakistan recently, to their children, when the attack took 
place?
    Do you see them having like a long-term commitment to 
eliminating the Taliban, or is that something that you think 6 
months, a year from now may fade away?
    Dr. Tellis?
    Dr. Tellis. It is a difficult question to answer at this 
point, but what we have certainly seen is that the Pakistan 
army seems to be much more energized about going after 
terrorist groups that are wrecking havoc within Pakistani 
society. I think that is welcome, and of course, it has been 
long overdue.
    The question that cannot be answered today is whether the 
Pakistanis will now extend this effort to groups that do not 
directly threaten Pakistan but threaten others--groups that 
threaten Afghanistan, United States forces in Afghanistan, and 
India. Thus far, we have seen a very energetic Pakistani 
response to their own state enemies. All things being equal, we 
would want to see that rather than the absence.
    But I think we would declare victory only when Pakistanis 
begin to think of terrorism in a sort of broader context and 
begin to focus their attentions on all terrorist groups, and 
not pick and choose between groups that support their interests 
and groups that support them.
    Senator Donnelly. How strong are their security efforts 
around their nuclear weapons? How good are their programs and 
processes, as you have seen, compared to other nations?
    Dr. Perkovich. On this one, I could say nuclear weapons are 
the most secure thing in Pakistan. That is good news and bad 
news.
    Senator Donnelly. Well, I am the tallest person in my 
family.
    Dr. Perkovich. I am the shortest in mine.
    Senator Donnelly. Everything is degree.
    Dr. Perkovich. But the issue is, is that--that is not the 
problem I would focus on precisely because it is one that they 
care about more than anything, the army. They have 
capabilities, and capabilities are acquirable to deal with 
that. So they may not be perfect at it, but they are on the 
job, and there is a reason to think they can manage it.
    The problem that is much harder is, again, the terrorism 
leads to the war, which leads to escalation. So it is not the 
loss of nuclear weapons, it is actually the use of nuclear 
weapons in a conflict to me is a more probable scenario. It has 
implications for us that are not as dire as a nuclear terrorist 
attack on the United States, but that are pretty dire when you 
start going through the calculation. So that is the unattended-
to problem that I think we need to focus on.
    Senator Donnelly. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    I would like to open this up for any of you if you would 
like to make a comment on it.
    I would like to know what influence we have as a country if 
we see the confidence of our allies being eroded over what they 
would view as the protection of a nuclear umbrella that we 
would have in the region.
    Also what influence we would have over trying to prevent 
proliferation amongst our allies in different regions, when we 
see conflicts continuing to grow, and the ability of our allies 
to acquire nuclear capabilities, either on developing them on 
their own or being able to purchase them elsewhere.
    If I will open that up.
    Dr. Kroenig. Well, it is an important question, and I think 
our extended deterrent depends in part on our capability. Do we 
have the capability to follow through? It also depends on the 
credibility. Will we do it?
    So going back to the question that was asked of Dr. 
Krepinevich on Iran, I think that is one of the things that 
would make deterring a nuclear-armed Iran very difficult and 
would make reassuring our allies in the region very difficult, 
would be the lack of United States credibility in that 
situation. After three successive United States presidents said 
a nuclear-armed Iran is unacceptable, Iran will not acquire 
nuclear weapons, and in the end, we allow them to acquire 
nuclear weapons.
    A deterrence and containment regime would rest on U.S. 
threats. It would rest on U.S. threats to use nuclear weapons, 
if necessary, to stop Iran, to go to war with a nuclear-armed 
Iran. So who would believe that we would be prepared to go to 
war with a nuclear-armed Iran if we were not prepared to go to 
war with a non-nuclear Iran?
    Also, capability is important. So when we think about Asia, 
and in Dr. Perkovich's testimony he said that China has a 
secure second-strike capability. We are vulnerable to China, 
whether we like it or not, and I think that is true. But we 
need to think about reassuring the allies in the region as 
well, and something that the allies say is that they would be 
very uncomfortable with nuclear parity between the United 
States and China.
    So I think one way to square the circle is to make sure, 
even if China has a secure second-strike capability, to make 
sure that we maintain nuclear superiority over China. I think 
that would be one way that China could feel secure that it is 
not going to be vulnerable to a nuclear strike, but also our 
allies in the region would feel confident under the American 
nuclear umbrella.
    Senator Fischer. Thank you. Yes?
    Dr. Perkovich. I will add a little to this.
    A big part of the--as Matt said--of the reassurance, which 
goes to the heart of your question, Senator, you know, is our 
resolve. This is something that you all would have to address, 
and it is a political issue. How much do you think the American 
people should be willing to sacrifice to defend Saudi Arabia? 
How would you sell that politically?
    Most of the terrorists that we have dealt with have an 
ideology that was propagated by Saudi Arabia, often in 
facilities funded by Saudis. The human rights record in Saudi 
Arabia is whatever it is. I remember the House years ago would 
not let the UAE [United Arab Emirates] buy a port facility in--
now we are going to talk about extending security guarantees?
    So it is a political issue that is first and foremost. They 
do not doubt our military capabilities. They see what we can do 
with conventional. They saw what we did in Iraq, 3 weeks gone. 
The issue is political, and do they think that the United 
States would actually defend them to the hilt, life or death, 
is a political issue, much more than it is a hardware issue.
    Senator Fischer. But do you not think it ties into a 
hardware issue when we know we need to modernize our arsenal, 
and we are not stepping forward and providing the resources 
necessary to do even that?
    You know, it was said earlier that we are increasing 
America's commitments and decreasing America's capabilities. 
That was, in my opinion, a statement that hit the nail on the 
head. That is where the focus, I think, needs to be for us to 
be able to move forward with any kind of credibility in this 
world.
    Dr. Perkovich. Absolutely. You absolutely have to modernize 
it, and everything else.
    But if you are talking about, for example, in the Middle 
East, an Iran with 1 weapon--or 10 weapons or 20 weapons--
whatever scenario you have about the United States force, which 
is at 2,200 now, it is probably going to be adequate as long as 
it is modernized, it is up to date. No one is questioning that.
    Senator Fischer. But as we continue to make commitments 
around the world, though?
    Dr. Tellis. Can I take a crack at that?
    I think the point you are making is a very important one, 
and particularly in East Asia. The best anti-proliferation 
measure we have is the robustness of our nuclear umbrella. To 
the degree that the allies feel reassured by the resilience and 
the strength of the nuclear umbrella, their incentives to go 
the nuclear route independently are diminished.
    Now, we have been blessed with allies, at least in East 
Asia, which are advanced industrial societies. If they choose 
to go the nuclear route, they could go there very, very 
quickly. So it becomes extremely important for us to be able to 
maintain our nuclear assets in good repair so that we do not 
have to incur the temptation--or they do not have to incur the 
temptation of going there.
    Having said that, however, to my mind, when one thinks 
about this strategically, the real challenge actually is for us 
to beef up our conventional capabilities, so that if they ever 
get into a fistfight with some adversaries, we have the 
capacity to defend them conventionally, such that we do not 
press too strongly on our nuclear assets.
    Let me put it this way. If you get into a fistfight in East 
Asia, I would rather be in a position where we are so good and 
so robust conventionally that the other guy has to think about 
using nuclear weapons first. If somebody else has to start 
thinking about using nuclear weapons first, then I have the 
nuclear Reserves necessary to deter them.
    If I end up being in a position where I have to use nuclear 
weapons first because my conventional capabilities are 
essentially less than robust, then I end up in a very, very 
uncomfortable and unfavorable world. That is the world we want 
to avoid.
    So we have to do two things simultaneously. You have to 
make certain that the big stick that is essentially our U.S. 
strategic Reserves are kept in good shape. But it is our usable 
forces that we will employ in the course of any conventional 
problem that really have to be beefed up so that we never have 
to use our own nuclear weapons if we are forced to.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator King?
    Senator King. You guys are full of good news.
    [Laughter.]
    Dr. Kroenig, I have never heard anybody deliver such 
appalling information so calmly before. The sentence that I 
seized on that you said in your testimony was, ``The ongoing 
conflict in the Ukraine is very much a nuclear crisis.''
    That is a very important piece of information. I have been 
to probably a dozen hearings in the last couple of months where 
the issue of arming the Ukraine has come up, and for a while, 
at least 2 or 3 weeks ago, it was sort of the wise guy 
consensus. Oh, yes, this is what we have to do.
    I sense there is a bit of a pause, but my question is do 
you see a danger of escalation, a risk of miscalculation? Given 
Russia's historic paranoia about the West, all those factors, 
give me your thoughts on arming the Ukrainians and danger of 
escalation.
    Dr. Kroenig. Well, I think this feeds in a little bit to 
the point that Dr. Tellis was just making, where if you can 
deter an adversary at the conventional level or defeat the 
adversary at the conventional level, you may be able to prevent 
the conflict from escalating up to the nuclear level. So I am 
less concerned about Ukraine, in part because the United States 
does not have as great a stake in Ukraine.
    What I worry about a little bit more is if President Putin 
were to kind of re-run this playbook against a NATO ally, 
against a Baltic State. Those--if they are NATO allies, we 
would be compelled to come to their defense. In those kind of 
situations, if President Putin were making these same kind of 
nuclear threats, I think the stakes would be much higher 
because it is a NATO ally, and I think there is a much greater 
risk for escalation in that kind of scenario.
    Senator King. I understand that. A point well taken.
    I guess to get back to Ukraine, though, my concern is that 
we do not live in a static universe, and we cannot assume that 
our escalation is the end of the story. To me it appears, as an 
outsider, that this is of more vital interest to the Russians 
than it is to us. Whatever we do, they can match and raise us. 
That, I said in a hearing the other day, if you are playing 
chess with a Russian, you better think at least three moves 
ahead.
    Changing the subject briefly. The danger of a terrorist 
group getting a nuclear weapon somehow--buying, stealing, 
whatever. Our whole theory of nuclear deterrence over the past 
70 years has rested upon a premise of state actors who are 
somewhat rational and fear death.
    What is our strategy to deal with people who are not state 
actors and want to die? Anybody?
    Dr. Perkovich. It has to be prevention. The stuff we are 
doing and probably can always do well.
    I mean, the good news on the nuclear piece of terrorism is 
to actually get a device that will go boom in a very big way 
requires highly enriched uranium or plutonium, which exists in 
finite quantities in knowable locations. So it is a problem 
that governments can actually redress with some degree of 
confidence. It is not like ending poverty or a lot of other 
things that one might want.
    Senator King. It is a technical challenge.
    Dr. Perkovich. It is a technical challenge and a political 
will challenge. I mean, and this administration has--especially 
with all the nuclear security summits has really applied a lot 
of heft and energy to it. There is a political will issue 
because there are a lot of states that need to do things that 
look at it and say, I mean, they are not going to go off in my 
territory if somebody gets a hold of it. So what is in it for 
me?
    Senator King. Didn't the Pakistanis sell nuclear 
technology? Or somebody? One of their scientists, as I recall.
    Dr. Perkovich. Yes. Yes. So that is a real problem. He sold 
them to states, where there is a distinction. So Iran, North 
Korea, Libya did not know what to do with it. So it just all 
sat in a box someplace. So terrorist capability to take all of 
that and integrate it and produce a weapon is a pretty good 
stretch. But they did not sell fissile material, which again 
goes to the point of that.
    So as problems go, this one is relatively manageable. It is 
not to say do not lose sleep over it, you know, but it is 
relatively--and there is detection. A lot of money has been 
thrown at detection. It was a good business to be in to make 
detectors. So, you know, a lot of effort has gone into it.
    Senator King. Dr. Tellis, your thoughts? Are you as 
sanguine as your colleague?
    Dr. Tellis. Well, I think we have been lucky so far that 
the kind of proliferation that occurred in Pakistan did not 
occur in terms of sales to a terrorist group. It occurred to 
states, and thankfully, as George pointed out, the states 
essentially did not do very much with it.
    But to my mind, as one looks at the nuclear future, this is 
a risk to which we do not have good answers. Because you could 
imagine a North Korea-like entity down the line actually taking 
the fatal step of making certain that some of its nuclear 
capabilities go to pretty bad people. These are non-state 
actors, could move to non-state actors.
    Senator King. For whom deterrence is not a concern.
    Dr. Tellis. For whom deterrence--and to deter non-state 
actors who do not have a sort of certifiable address and who 
can do things under the cover of darkness is really, you know, 
that is a hard case to deter.
    So what is the strategy? I think the strategy first has to 
be prevention as best one can. Second, you have to invest a lot 
in strategic intelligence. Because when people sell things, 
hopefully, they use telephones, they use computers, they use 
the Internet. These are things that, in principle, can be 
intercepted. So you need strategic intelligence.
    Third, you need to have a government that is agile enough 
to, either unilaterally or in collaboration with the 
international community, to come up with political strategies 
of interdiction. Sometimes those political strategies may 
require military components.
    So we have to work at all levels. This is not a problem 
susceptible to a single-point solution.
    Senator King. Yes. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Dr. Kroenig, just one of the things that 
we have talked about--I do not believe it is fair to say we are 
acting on--is the possibility of configuring our nuclear 
arsenal with more specialized weapons that might be usable in a 
circumstance that would be more targeted and less devastating 
or have other capabilities.
    Have you given any thought to the wisdom of the United 
States proceeding in that fashion?
    Dr. Kroenig. Well, this is an area where I am doing some 
research now, and I think I share your concerns that it does 
seem like the United States has a gap in its capabilities at 
present--a very strong conventional force, a very strong 
strategic nuclear force, assuming we modernize it--but I think 
a gap in terms of usable nuclear capabilities.
    So the scenario I laid out in my testimony was a conflict 
between the United States and Russia. Russia is planning and 
exercising to use nuclear weapons on the battlefield. If that 
were to happen, if there were----
    Senator Sessions. So they are planning and exercising in 
their war games the utilization of nuclear weapons?
    Dr. Kroenig. That is right. Nearly----
    Senator Sessions. Which is beyond what we do?
    Dr. Kroenig. President Putin himself sometimes directly 
participates in these things.
    So, if this were to happen, I am afraid that the United 
States does not really have a good response. We could try to 
fight through it with conventional capabilities. We could 
escalate to strategic nuclear warheads, but those are very 
large warheads. It risks the escalation to a strategic nuclear 
exchange.
    It calls to mind something Dr. Henry Kissinger said in the 
1950s, that we could be faced with this choice between suicide 
or surrender. His argument then was that we needed limited 
options in between. I think we are in a similar situation now, 
where we need to think about what are the limited nuclear 
options we might be able to deploy in response to a limited 
Russian nuclear attack. Of course, with the point of deterring 
that attack in the first place.
    Senator Sessions. Dr. Krepinevich, do you want to comment 
on that?
    Dr. Krepinevich. Yes, to add to what Dr. Kroenig said, and 
in a sense to draw on what George Perkovich said, if you look 
at the what some people are calling the second nuclear age or 
the second nuclear era, it is the ability to assess the 
balance, if you will, is much more difficult because, as George 
said, of the introduction of advanced precision weapons, 
advanced defenses, cyber, and so on.
    Also because you are looking at a different range of 
contingencies. You know, a lot of times during the Cold War, we 
would look at Armageddon. You know, a massive Soviet attack on 
the United States, and if you could not deter it, it would be 
the end of the world. We are looking at a wide range of 
contingencies. We are also, I think, looking at a different--
needing to, in a sense, to reconstruct the escalation ladder, 
and I think that is what a number of these questions are 
getting at.
    If somebody is competing with us at a particular level in 
the conflict in the Ukraine, as Dr. Kroenig said, could we 
escalate horizontally? Do we have an advantage in doing so? Can 
we escalate vertically or horizontally to a different 
geographic area?
    Absent knowing that, absent knowing whether you have the 
ability to escalate and not jump--not need to jump a number of 
rungs to--I think Dr. Kroenig's point is to using large-yield, 
large-scale nuclear weapons, you may preclude yourself from 
having important options.
    I think, personally speaking, the fact that we have not 
matched what some of our competitors are doing in terms of 
exploring the options for relatively low-yield weapons or 
weapons with focused effects limits our options, limits the 
President's options. I am not talking about more nuclear 
weapons. I am talking about a greater range of nuclear options, 
if you will.
    One thing I would just add, apropos of what was said 
earlier in terms of, I guess, what Dr. Tellis said, is I think 
absolutely what he is talking about, and George as well, about 
having a strong conventional capability so you have options 
there. I had conversations with Prime Minister Abe's--one of 
his senior advisers. He got very emotional and said, ``If we 
were ever hit with a nuclear attack by North Korea, do not tell 
me you are going to use precision weapons against the North.'' 
He said, ``You better use nuclear weapons.''
    Okay, if that is the case and if he really means it, I 
would rather have the President have the option of using 
weapons that--perhaps if they are nuclear but have, you know, 
very focused, very limited effects, you know, that were 
necessary to do the job.
    Senator Sessions. Dr. Tellis, I see you nodding on that. 
You got a brief--
    Dr. Tellis. Well, imagine a world where you have an ideal 
U.S. nuclear deterrent. To my mind that ideal world would be 
one where every U.S. nuclear weapon essentially has a 
selectable yield, and that selectable yield can essentially 
be--
    Senator Sessions. A selected yield?
    Dr. Tellis. A selectable yield, where you can actually dial 
the yield. Where that selectable yield can be organized or 
orchestrated essentially electronically without someone having 
to actually go to the weapon and jimmy it up.
    I think if you could do that, you give the President, even 
within the constraints of the current delivery architecture, a 
whole range of options.
    Senator Sessions. Well, this is kind of important to us, I 
think, because we are in a stratified, a calcified process 
here.
    So what you are suggesting is it might be better that if we 
cannot do as you said, altering it in that fashion but actually 
could create a multiplicity of weapons with different 
capabilities that would give the President more option, you 
think we would do well to consider that in our budgetary and 
defense posture?
    Could all of you all give a quick--I see that Dr. 
Perkovich----
    Dr. Tellis. Yes.
    Dr. Perkovich. There are going to be big consequences that, 
of course, you would want to weigh beyond the budget. I mean, 
because Matt was talking about lack of capability in Europe, 
but we are spending--you tell me--I think it is $8 billion to 
$10 billion to modernize the B61. So if that is irrelevant, why 
are we going to spend $8 billion to $10 billion to modernize 
the--so you could save money from that and put it into 
something else.
    But to do that kind of development and procurement, beyond 
the budgetary issues, will have reverberations within NATO. You 
want to reassure the alliance. You will split NATO in many 
ways. So most of the Western European states will--in 
likelihood would protest that. Their parliaments would be 
mobilized. The Germans would be mobilized. So you would have a 
political--
    Senator Sessions. Their theory is it would be more likely 
to be used, and so you should not have that option?
    Dr. Perkovich. Exactly. Exactly. So you get a political 
fissure within NATO. I am not saying not to do it. I am saying 
you would want to calculate that.
    For every Japanese official who is worried--and I have 
talked with them, too--like Andrew posits about a threat, you 
have also got a big constituency in Japan that is anti-nuclear, 
pro-disarmament, and so on. So you would have to deal with the 
implication of that.
    You would have to deal with how the Chinese would react. 
How this is a new capability, so they are going to have to 
counter it. So how do they counter it? How does their counter 
affect what India does? How does that play back into Pakistan? 
So all of that kind of assessment would have to go into a 
decision to change course.
    Now, you may still want to do it, but it is not risk free 
is what I would say.
    Senator Sessions. Well, I thank you. I have heard a little 
bit of that.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Kroenig, I want to be careful here because I do not 
want to go into classified areas. But we have low-yield weapons 
as well, don't we?
    Dr. Kroenig. We do, yes. We have the B61 gravity bombs in 
Europe, as George pointed out. My concern there is that if 
Russia used a single nuclear weapon, there are some problems 
with using the B61 to retaliate.
    Senator Donnelly. There are other missiles, too, though, 
right?
    Dr. Kroenig. There are some air-launched cruise missiles 
that are based in the United States. But given that they are 
based in the United States, I think that causes some limits in 
terms of their ability to function as a deterrent and an 
assurant in Europe.
    I should point out that in my testimony, I do not recommend 
any specific changes, but I think that we should consider these 
changes. You know, we are essentially in a third phase in our 
relations with Russia.
    Senator Donnelly. Well, at what point when you look at 
Putin, what he is doing, is he trying to change the discussion?
    They have lost a lot of their territory. They want to be 
viewed in a different way. When you look at him--and you know, 
a lot of people could make a lot of money trying to figure this 
guy out. But when you look at him, do you think he reasonably 
thinks that he can use manageable nuclear weapons and not wind 
up in a total conflagration of his country?
    Mr. Koenig. Based on the way they plan and exercise, I 
think there is a belief that they could get away with a 
tailored use of nuclear weapons in the event of a major 
confrontation with NATO.
    So, again, it is not a likely scenario, but nuclear 
deterrence is really about, you know, dealing with these 
unlikely, but dangerous situations.
    Senator Donnelly. My expectation is that if Mr. Putin 
thought that, he would be quickly corrected, and that it would 
cause one of the most dangerous situations ever seen in this 
world, and I would think that reasonable Russian leadership 
would remove him if he tried to move forward with that kind of 
thing.
    Mr. Koenig. We could hope for that. I think it would be 
better to have the capabilities in place to deter that kind of 
response in the first place rather than have them tempted to go 
down that route and get into a larger confrontation.
    Senator Donnelly. So you mentioned suicide. Do you think we 
are in a suicide or surrender situation in this country?
    Dr. Kroenig. I think if Russia uses tactical nuclear 
weapons, we do not have a very good response, and so--
    Senator Donnelly. With all of the materials we have, with 
the nuclear submarines we have, with the triad that we have, 
you really believe that?
    Dr. Kroenig. Well, as I pointed out, I think the problem 
with the triad is these are large-yield weapons, and so I think 
that would not have the maybe kind of tailored effect that we 
might want. In addition, it raises the possibility that Russia 
would then retaliate with its own strategic weapons.
    So, again, I think having--I think we have this gap in our 
capabilities, and closing that gap would provide a better 
deterrent.
    Dr. Perkovich. Can you use cyber? I mean, why does it have 
to be nuclear? We have all sorts of other capabilities.
    What is it that you want to take down, and there are all 
sorts of ways that you could take it down that do not even 
necessarily have to be a nuclear weapon.
    So is there something that from a deterrent point of view--
and there may be--requires it to be a mushroom cloud, or is it 
to actually incapacitate targets?
    Dr. Kroenig. Well, I think these are exactly the kind of 
questions and discussions we should be having, and I have an 
ongoing study on this, looking at what the best responses might 
be.
    But, you know, our current capabilities were put in place 
at the end of the Cold War. All of our assumptions about the 
strategic environment at the end of the Cold War were that 
nuclear weapons--the threat of nuclear use between major powers 
was low. The threat of conflict with Russia was remote, I think 
was the language we often used. Most people agreed that the 
strategic environment has fundamentally changed in the past 
year.
    So I think we need to think seriously about what that means 
for our capabilities. It is possible that we will say that 
everything we had been doing is exactly right and we should 
continue to do it, even though the strategic environment has 
fundamentally shifted. My hunch is that, given that the 
strategic environment has fundamentally shifted, we will have 
to change the way we do business.
    Senator Donnelly. Let me ask you about follow-up on Senator 
King's question about providing defensive weapons to Ukraine. 
What do you think the effect--and this would be for all of 
you--what do you think the, you know--I would like to get your 
ideas. What do you think Russia's response to that would be?
    Dr. Kroenig. Would you like me to begin?
    Senator Donnelly. Sure.
    Dr. Kroenig. Well, I do think that we should provide 
defensive weapons to the Ukrainians. I think we should give 
them the ability to defend themselves. It is difficult to know 
what Russia's response would be exactly, but the purpose would 
be to raise the cost to Russia.
    I think the worst thing for NATO would be if all of Ukraine 
fell to Russia. I do not think that is likely in the short 
term. But if all of Ukraine were to fall to Russia, you can 
just look at the geography. The rest of NATO would be very much 
in danger.
    So I think doing little things to raise the cost to Russia 
are in the United States' interests.
    Senator Donnelly. I am out of time, but if we could?
    Dr. Perkovich?
    Dr. Perkovich. In principle, nothing would make me feel 
better than to colossally humiliate and emasculate President 
Putin. So, like, I think about ways to do it all the time.
    My worry is it would have the reverse effect, and this goes 
to something Senator King said. Given the geography, given the 
way that he can operate free of a lot of the political, legal, 
and other constraints that we have, if one does something that 
provokes him to feel like he is going to feel even taller as he 
responds to providing defensive arms to Ukraine--so he comes 
back harder and says, ``We've never been in Ukraine, but now 
that NATO has come into Ukraine, we can actually put Russian 
forces into Ukraine,'' then you have lost that round. It is 
chess.
    So then you come back--at some point, we have to confront 
the possibility of needing to put air power in as a way to deal 
with it. But then you run into air defenses and losing pilots.
    So unless you have got it figured out, how you do all the 
escalation so that you kick his--at every step of the way, then 
why gratify him by going another move that allows him to 
humiliate the West further, seems to me very counterproductive 
to an objective, which I would totally, totally share, which 
would be to humiliate him.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Sessions. Well, let us finish up.
    Dr. Tellis, do you want to have a brief comment on that?
    Dr. Tellis. I share Mr. Perkovich's view, which is if there 
was a cheap and easy way to put Mr. Putin back in a box, I am 
all for it.
    The problem we have is this. Whatever assistance we 
contemplate giving the Ukrainians, do we really believe that 
that assistance by itself will raise the costs to Russia 
sufficiently to cause Mr. Putin to cease and desist? If we 
believe that to be the case, there is a compelling argument for 
providing the aid.
    If we believe, on the other hand, that this is only going 
to be a provocation that will cause Putin to double down on 
what he is already doing, then you do not do this unless you 
are prepared to take the fatal next step, which is to introduce 
NATO or other Western forces to protect the Ukrainians, because 
they are going to be at the business end of a very severe 
Russian counter response.
    So my view is we should aid them, but if we aid them, we 
should do it with full malice aforethought. We need to know 
what we are getting into, and we need to be prepared to pay the 
price of what will be required to actually stop them.
    Senator Sessions. Thank you.
    Dr. Krepinevich, I think you also wanted to comment on a 
previous point.
    Dr. Krepinevich. I think a key issue with respect to 
Ukraine is just--and I think Ashley was kind of alluding to 
this--how serious are the Ukrainians?
    If they are serious as a heart attack, we have seen 
recently what even modest amounts of decent military equipment 
can do to an invading force attempting to occupy another 
country, whether Iraq or Afghanistan or the Israelis moving 
into Lebanon in 2006 in the Second Lebanon War. So if they are 
serious, we have the kinds of equipment that can be very useful 
for resistance forces, that can buy us a lot of time to get our 
house in better order and among our Eastern European NATO 
allies, that can impose dramatically disproportionate costs on 
the Russians.
    So, again, it depends in my mind on just how serious the 
Ukrainians are. But we can equip them. We do not have to--you 
know, we can train them outside of Ukraine. There are a number 
of things we can do and, quite frankly, we have done it before 
with some success. But I do think, as Ashley said, it requires 
some serious thinking up front.
    As far as the issue of whether new or different kinds of 
nuclear weapons would help us in the competition with the 
Russians, I guess my feeling is, bottom line, do you want to 
buy yourself some more options or don't you? You know, can you 
make the case--as George was pointing out, you create a bit of 
dilemma. Can you make the case to your allies that by buying 
more options, that increases the odds we will not have to use 
these weapons? Or that we will be put in a position, as Matt 
was saying, of either go places you do not want to go or 
surrender, to paraphrase Henry Kissinger.
    The other point I would make is there have been a lot of 
advances in both the social and the cognitive sciences over the 
last 20-25 years. Two individuals, Kahneman and another, won a 
Nobel Prize in 2002 for pointing out the fact that there is no 
such thing as ``rational economic man,'' that human beings are 
in many ways irrational.
    There has also been done--accomplished recently in the 
social sciences--some work looking across cultures at how 
people from different cultures calculate cost, benefit, and 
risk. Obviously, each person within a culture is an individual, 
but by and large how different cultures tend to view things. In 
some respects, they can be very different from the way we view 
things.
    So the notion that somehow strategies of deterrence and 
signaling and so on are going to prove effective over time, 
certainly Chamberlain thought he was signaling Hitler, I am 
sure, and thought he had the measure of him. Franklin Roosevelt 
thought he understood Stalin. We still do not understand why 
Saddam did the things he did. We think some of them are wholly 
irrational, I would think.
    So to sit here and say that somehow Putin thinks like us, 
and of course, he would never do these things. History is 
replete with despots and dictators doing things we never 
thought they would do, and yes, Khrushchev was removed by his 
Soviet colleagues in 1964. Unfortunately, 2 years earlier, he 
precipitated the Cuban Missile Crisis that almost blew the 
world up.
    Senator Sessions. Well, thank you.
    Now, I will go to you next. You can have my time next.
    I would just think that that is wise advice. We had a 
hundred years ago a shooting of an archduke, and we ended up 
with the most incredible war that anybody had ever imagined at 
the time.
    On the arming in Ukraine, it is interesting. Brzezinski, 
Albright, Flournoy have all testified in recent weeks before 
our committee that we should--Democrats. Secretary Kissinger is 
cautious. The Germans, Dr. Perkovich, share your view entirely 
because I was at their embassy not long ago, and they were 
asked and the ambassador explained their position. So it is a 
complex world we are in.
    Senator King, do you want to--
    Senator King. Well, Dr. Krepinevich, I would like to follow 
up on your comment.
    I think often the fault of American foreign policy is 
thinking that other people think like us and not understanding 
what cultural and historic differences, and that is why I am so 
cautious about Putin. There is, I don't know, 500, 600 years of 
Russian paranoia going back to Peter the Great about the West. 
Putin's approval rating in Russia today is 80 percent.
    I would venture to say if we came into the Ukraine in a 
visible way, it would go to 90 percent because it is a 
nationalistic thing that is just part of our history. I share 
the chairman's concern about mistakes and accidents.
    We heard in our caucus lunch yesterday about Pleiku, a 
little town in Vietnam, where there was an attack in 1965. Six 
Americans were killed. As a result of that attack, President 
Johnson believed that this was directed from North Vietnam, and 
it justified the bombing campaign and then the introduction of 
American troops.
    It turned out 40 years later, it was a randomly generated 
local conflict. The whole premise of the escalation was 
incorrect. That is what really concerns me about the Ukraine, 
particularly when you are dealing with a place where they have 
the upper hand in terms of the assets available and readiness--
readily available.
    I think I want to, though, just come to some consensus. Is 
it fair to say that all of you agree that we must modernize our 
nuclear capacity, and second, we must look to greater 
flexibility in terms of the nuclear deterrent? Is that a fair 
summary?
    Dr. Perkovich. Modernization, yes. Flexibility, would 
depend profoundly on how--and these other effects that I am 
talking about, because--but modernization, yes.
    Senator King. Dr. Kroenig, that is certainly your position, 
is it not?
    Dr. Kroenig. Yes. Modernization and flexibility.
    Senator King. Thank you.
    Dr. Krepinevich. Yes.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Well, just to proceed a little further, Dr. Kroenig and Dr. 
Tellis.
    Dr. Tellis hypothesized--raises the hypothetical that there 
is an attack on Japan, and we are obligated to respond 
forcefully on North Korea. If we have a less devastating, more 
technical weapon, we can honor our requirements, maybe do the 
necessary job without doing as much destruction as a strategic 
nuclear weapon might do.
    Dr. Kroenig came up with another one I had not thought 
about, which is what if the Russians use a tactical nuclear 
weapon in the Ukraine, and do we have a tactical nuclear weapon 
response, short of a massive strategic response?
    I had not thought of either one of those examples before, 
but I think it is something for us to think about.
    As I understand where we are today, the administration 
favors modernization, but it takes Dr. Perkovich's view that 
specialization or new weapons, even if they are less dangerous 
and safer and all that, represent some sort of alteration of 
our strategy that would cause dominoes around the world to be 
moved. But I am not sure I agree with that, but that is where 
we are.
    So the budget that has come over, and we have not energized 
any plan to challenge the President or push him harder, but 
maybe we should in the months to come and really insist that we 
discuss this, and is it smarter to have more options or not 
have more options? So that is--
    Dr. Tellis?
    Dr. Tellis. I would just like to respond to that because I 
accept the basic argument that Senator Donnelly is making, that 
the U.S. arsenal certainly has weapons of varying yield, 
including low yields.
    What I do not have an answer to, at unclassified levels 
certainly that I can think of, is whether these weapons meet 
the tests of responsiveness and penetrability. I think that is 
really what you need to think about in a different forum. If 
you conclude that the low-yield weapons or the weapons that 
have selectable yields meet the requirements of responsiveness 
and penetrability, then I think we are home free, and we do not 
have to worry about this.
    But in general, I think the point that Dr. Krepinevich made 
is really the central point, which is, do you want to be in a 
position where you have more options rather than less, 
particularly as you enter a nuclear world where most of the 
emerging nuclear powers are going to have weapons that are 
relatively small in yield and, you know, in small numbers?
    So as you think of this new world that is emerging out 
there, the questions that Dr. Kroenig is asking is whether the 
legacy force can actually deal with these contingencies without 
modification. Now I do not know whether this requires us to 
actually go back and develop new warheads or whether we can 
simply tinker with what we have in the back rooms. But these 
are questions that I think need to be addressed in classified 
settings with folks in STRATCOM [U.S. Strategic Command].
    Senator Donnelly. Yes, there are a lot of classified 
settings to address these in. I guess, you know, we talk about 
people, in effect, almost riding by each other without 
understanding that they just stopped on the same street.
    I would think, and maybe it is for publication, if 
President Putin would ever think that he could use a low-yield 
nuclear weapon on another country without catastrophic events 
then beginning from that, I think he would be sadly mistaken, 
that every other leader in our network of friends would take 
action.
    I think--I would hope, you know, as you talk about this, it 
is a different culture. It is a different way of thinking. It 
is in many ways sometimes ships passing in the night, but one 
ship needs to tell the other ship, ``If you do this, all bets 
are off.''
    Dr. Perkovich?
    Dr. Perkovich. Just to reinforce--and I agree with Ashley, 
you would want to do these studies. You would also want to ask 
all the different commands, like, given $10 billion for this or 
for that, how would you spend the money?
    But beyond that, in my travels--and I have been to all the 
countries that we are talking about--Iran, not North Korea, but 
all of the targets. I do not think their leaders are going to 
discriminate between whether it was 100 kilotons or 12 
kilotons, and so on. I do not think if a device goes off, you 
know, over at the Pentagon and we are sitting here, somebody is 
going to say, ``Don't worry, it was only 30 kilotons, you know, 
it wasn't a big one.''
    So I think it is a game theoretic calculation in a lot of 
ways, and that this is something the Chinese and others 
understood all along. They have got their 250 weapons, we have 
got our 2,200--that you do not need to have--that they are 
political weapons, and the distinctions about yields and all of 
that are something that people like us get paid to think about, 
but political decision-makers in an actual event when they are 
going off probably are not going to be making those 
distinctions in the way that they then react. So I would factor 
that into the discussion, too.
    Senator Sessions. Now, Dr. Krepinevich, what about the 
triad? Some think we could get by without the full triad. Maybe 
the nuclear subs and/or something in addition.
    Do you four have an opinion as to that? It is not as 
expensive as you--as some people imagine, but it is an 
expensive proposition.
    What are your thoughts about the triad?
    Dr. Krepinevich. My thought is that until we identify a 
range of contingencies, realistic contingencies that reflect 
the circumstances that myself and my colleagues have been 
describing here, and test the arsenal against those 
contingencies or scenarios, I would be loathe to abandon any of 
the legs of the triad.
    I think the bomber leg gives us an enormous amount of 
flexibility. The submarine leg certainly, perhaps, allows us to 
sleep most securely at night. The land-based missile force, to 
a certain extent, acts as kind of a missile sump because if you 
look historically at the studies of nuclear attack and so on, 
that it gives us the ability to absorb a lot of an adversary's 
nuclear capability if they want to undertake a first strike 
against us.
    So, again, I think we are putting the cart before the horse 
if we are talking about abandoning a particular leg of the 
triad without looking at the new circumstances in which we find 
ourselves, and how we would deal with those circumstances 
across a range of plausible contingencies.
    Senator Sessions. Thank you, and I will go to you, but do 
any of the other three want to share briefly?
    Senator Donnelly. I apologize. I have to go to another 
meeting right now.
    But I want to thank all of you. We are in your debt for 
your service, for your efforts to inform us in the best 
possible decisions we can make. I want to thank you so much for 
taking the time to be here.
    Thank you.
    Senator Sessions. Dr. Kroenig?
    Dr. Kroenig. Yes, on the triad, I would agree that each leg 
of the triad has special attributes and characteristics and 
that our nuclear force would be weaker if we got rid of any of 
the legs. I do think we need all three.
    You mentioned the cost issue as well, and I think according 
to most estimates, we spend something like 4 percent of the 
defense budget on the strategic forces. Given, as Dr. Tellis 
said, that it is really the backstop of the rest of our 
defensive capabilities, I think that is well worth it.
    Even Secretary of Defense Carter has been on the record to 
say that I think the quote is, ``Nuclear weapons don't actually 
cost that much.'' So I think these arguments that they are too 
expensive miss the mark.
    Senator Sessions. He shared that with me recently, and I 
share that view.
    Are there any of you like to comment on that?
    Dr. Perkovich. My only thing would be, I agree with you, 
one would study it. It would be progress if we could make it, 
and you could help make it, not a holy trinity. In other words, 
that it is--the triad is something that should be scrutinized, 
analyzed, and you come up with strong justification, you keep 
doing it. But for a long time it has been something you could 
not question, and I think that would be progress to say we 
ought to analyze it and not prejudge one way or the other. That 
would be progress.
    Dr. Krepinevich. I just would like to say, Mr. Chairman, my 
colleague Todd Harrison and Evan Montgomery are working on a 
cost estimate of the nuclear enterprise, and we are looking to 
release that estimate in April.
    Senator Sessions. Well, that was going to be my final 
question to ask all of you, knowing what you know about the 
budget, the President's budget is public, to give us any 
thoughts about what the priorities should be and if it is 
sufficient.
    Dr. Tellis, do you want to----
    Dr. Tellis. Senator, I cannot speak to the issues of cost. 
So I will defer to Dr. Krepinevich on that.
    But I wanted to just make the point that when one looks at 
the nuclear trend lines 10-20 years out, there is nothing that 
compels me to conclude that you can move away from the triad 
anytime soon. So I hope that is something that we will continue 
to invest in.
    Senator Sessions. Thank you.
    I am, frankly, of the view that there is uncertainty about 
the United States' will around the world. I do not think it is 
correct, but there is a growing uncertainty out there. I think 
that any significant reduction in our nuclear capabilities 
could be misread at this point in history in a way it might not 
be misread previously, like Nixon going to China kind of 
insight.
    I also have been--Dr. Krepinevich, I have been watching the 
defense budget, trying to be hard on them, but likewise, I am a 
little bit of the view that things are getting dicey around the 
world. People think we are on a pell-mell collapse of will, and 
even the defense budget, if it is cut--if it is perceived as 
being reduced too significantly could be improperly perceived 
as weakness.
    Because I think we can maintain a lean-type budget. With 
this fabulous military, this battle-hardened, fully equipped 
military that we have, and highly trained, I do not think we 
are heading pell-mell to weakness. But I am worried we got 
people in the United States that think so, and we got people 
around the world that share that concern.
    Thank you for this fascinating and fabulous comments you 
shared with us. Again, if you have any thoughts that you would 
like to share, I would appreciate receiving them.
    I would also say that we have a good subcommittee and a 
good committee that I do think wants to do the right thing, and 
politics has not been a big factor in recent years on nuclear 
issues, and I hope we can keep it that way.
    Thank you.
    [Whereupon, at 4:25 p.m., the subcommittee adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
